Office of Inspector General
U.S. General Services Administration



Semiannual Report
to the Congress
October 1, 2005 - March 31, 2006
GSA’s SIGNIFICANT MANAGEMENT CHALLENGES
The Congress requested the Inspectors General of major Federal agencies to report on the most
significant management challenges facing their respective agencies. Our strategic planning
process commits us to addressing these critical issues. The following table briefly describes the
challenges we have identified for GSA and references related work products issued by the GSA OIG
and discussed in this semiannual report.

CHALLENGES                BRIEF DESCRIPTION OF CHALLENGE                                PAGE

ACQUISITION               Merging GSA’s procurement organizations will yield a           2– 4
PROGRAMS                  single acquisition service that will award and administer
                          governmentwide contracts worth $40 to $50 billion.
                          With growing programs and shrinking numbers of
                          qualified acquisition personnel, attention to important
                          fundamentals, such as ensuring competition and
                          meaningful price analysis, has diminished.

CONTRACT                  GSA’s multibillion dollar acquisition programs have           4– 6
MANAGEMENT                expanded rapidly in terms of sales, variety, and complexity
                          of the procurements performed. A growing list of warning
                          signs throughout the acquisition process suggests that
                          the technical and management skills needed by the
                          procurement workforce to operate in this more
                          sophisticated arena are not keeping pace with these
                          new demands.

INFORMATION               Technology applications have increased exponentially           6 – 12
TECHNOLOGY                as “E-Gov” is used to better manage operations and
                          interface with the public, but complex integration and
                          security issues exist.

MANAGEMENT                Management controls have been streamlined, resulting          13 – 15
CONTROLS                  in fewer and broader controls, making it essential that
                          the remaining controls be emphasized and consistently
                          followed. The need for strong internal controls underlies
                          several of the other management challenges.

AGING FEDERAL             GSA is being challenged to provide quality space to           15 – 16
BUILDINGS                 Federal agencies using an aging, deteriorating inventory
                          of buildings and facing critical budgetary limitations in
                          its modernization program.

PROTECTION OF             GSA is responsible for protecting the life and safety of      No
FEDERAL FACILITIES        employees and public visitors in Federal buildings. The       Reports
AND PERSONNEL             increased risks from terrorism have greatly expanded the      This
                          range of vulnerabilities. A broadly integrated security       Period
                          program is required.

HUMAN CAPITAL             GSA has an aging workforce and is facing significant loss     No
                          of institutional knowledge due to retirements, including a    Reports
                          loss of key management staff over the past year. Better       This
                          recruitment and training programs are needed to develop       Period
                          the 21st century workforce.
               Foreword


Throughout this first year of my tenure as Inspector General, I have sought ways to
build on the office's many strengths. We are engaged in a strategic planning effort
to identify and prioritize additional goals and tasks that will enable the office to apply
to new circumstances its steady competence, integrity, and vigor.

Continuing developments in information technology present both opportunities and
challenges for our office and our Agency. We are developing the systems we will
need to keep up with progress in the field, and we are strengthening our internal
structure to meet new challenges in ways that maintain the capacity and
independence of the office.

Expertise and independence can also be enhanced through coordination with other
agencies. We will continue to work with the IG community, the Department of
Justice, and other agencies to learn from them and work with them on projects of
mutual concern.

For example, we have gone to considerable lengths to participate in the post-Katrina
interagency task force effort on both the audit and investigative fronts. While we
have had to defer other work in our normal portfolio to do this, it has been important
for us to work with the many other agencies dealing with the aftermath of the
hurricane and response efforts.

Even in our highly technological and ever-changing age, however, it is important to
maintain an appreciation for what is truly important: our people. We strive to create
a work environment that provides all of our team members challenging assignments
and affords each the opportunity to grow personally and professionally. Standards of
fairness, integrity, and equity are the core principles guiding how we conduct
business and how we want to be viewed by others. We believe firmly in the
effectiveness of leading by example.

In our efforts to protect the integrity of GSA programs over the 6-month reporting
period ending March 31, 2006, we made 372 referrals for criminal prosecution, civil
litigation, and administrative action. Criminal cases originating from OIG referrals
resulted in 63 successful prosecutions. Criminal prosecution is the ultimate weapon
against fraud, waste, and abuse. During this period, we also identified over
$240 million in financial recommendations on how funds could be better used. We
achieved over $724 million in management decisions agreeing with audit
recommendations, civil settlements, and direct recoveries.

On a personal note, I wanted to express the honor that I feel in representing the
people of the United States of America as an Inspector General. Inspectors General
hold a special trust to make sure that the taxpayers are getting the most from their
hard-earned tax dollars. I also want to express my appreciation for the
accomplishments of all of the OIG employees and commend them for their continued
professionalism, dedication, and willingness to accept new challenges. Finally, I
want to express my appreciation to Congress and OMB, as well as to the senior
management of GSA, for their support over this past year.



Brian D. Miller
Inspector General
April 28, 2006
          Table of Contents



                                                                                              Page

Summary of OIG Performance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .v

Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .vii

OIG Organization Chart . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .xiv

OIG Profile . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1

Management Challenges . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2

  Acquisition Programs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2

  Contract Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .4

  Information Technology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .6

  Management Controls . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .13

  Aging Federal Buildings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .15

Promoting and Protecting Integrity . . . . . . . . . . . . . . . . . . . . . . . . . .17

  Significant Preaward Reviews and Other Audits . . . . . . . . . . . . . .28

Governmentwide Policy Activities . . . . . . . . . . . . . . . . . . . . . . . . . . .33

Professional Assistance Services . . . . . . . . . . . . . . . . . . . . . . . . . . .35

Statistical Summary of OIG Accomplishments . . . . . . . . . . . . . . . . .37

Appendices

Appendix I – Significant Audits from Prior Reports . . . . . . . . . . . . .45

Appendix II – Audit Report Register. . . . . . . . . . . . . . . . . . . . . . . . .48

Appendix III – Audit Reports over 12 Months Old with Final
 Action Pending . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .57

Appendix IV – Delinquent Debts. . . . . . . . . . . . . . . . . . . . . . . . . . . .68

Appendix V – Reporting Requirements . . . . . . . . . . . . . . . . . . . . . .70

Appendix VI – OIG Offices and Key Officials . . . . . . . . . . . . . . . . . .71

This semiannual report may be accessed on the Internet at the following
address: http://www.gsa.gov/inspectorgeneral


                                                                         Office of Inspector General iii
                      Summary of OIG Performance



OIG Accomplishments    October 1, 2005 – March 31, 2006

                       Total financial recommendations                               $248,027,395

                       These include:

                       • Recommendations that funds be put to better use              $240,177,561

                       • Questioned costs                                               $7,849,834

                       Audit reports issued                                                 85

                       Referrals for criminal prosecution, civil
                       litigation, and administrative action                               372

Results Attained       Management decisions agreeing with audit
                       recommendations, civil settlements, and
                       court-ordered and investigative recoveries                     $724,644,147

                       Indictments and informations on criminal referrals                   40

                       Cases accepted for criminal prosecution                              39

                       Cases accepted for civil action                                       7

                       Successful criminal prosecutions                                     63

                       Civil settlements and judgments                                       8

                       Contractors/individuals debarred                                     17

                       Contractors/individuals suspended                                    20

                       Employee actions taken on administrative referrals
                       involving GSA employees                                               7




                                                                            Office of Inspector General v
     Executive Summary



During this period, the OIG continued to direct its audit, investigative, and
evaluative resources to address what we believe to be the major
management challenges facing the Agency. We provided a wide variety of
services, including program and financial audits; management control
assessments; contract reviews; and investigative coverage and litigation
support in civil fraud and enforcement actions, criminal prosecutions,
contract claims, and administrative actions. We also continued to provide
professional assistance services and reviews of proposed legislation and
regulations.

Management Challenges
We have highlighted a number of reviews that address major management
issues facing GSA. We continued our work in addressing these challenges,
making recommendations, and working with management to improve
Agency operations. During this period, our efforts included work focusing on
acquisition programs, contract management, information technology (IT),
management controls, and aging Federal buildings.

Acquisition Programs

FTS Contracting Practices and Agency Improvement Actions
Since FY 2002, we have been performing reviews of contracting practices at
the Federal Technology Service’s Client Support Centers (CSCs). CSCs
help customer agencies define their IT requirements, identify sources of
products or services, prepare task orders, and assist in managing projects.
In FY 2005, CSC procurements exceeded $3.6 billion, with Department of
Defense (DoD) customers representing about 84 percent of the business.
As part of our continuing effort on reviewing CSC contracting practices, we
performed a 2005 joint review, with the DoD OIG, of each CSC to determine
compliance with defense procurement requirements. We found that 11 of
the 12 CSCs were not compliant but were making significant progress
toward becoming compliant, and 1 was compliant. We are currently
conducting follow-up testing of controls, jointly with the DoD OIG, to test the
effectiveness of both GSA and DoD procurement improvements, and
whether the 11 CSCs are now compliant (page 2).

Significant Cost Overruns In the Western Distribution Center Relocation
Project
In 2003, the Federal Supply Service (FSS) relocated the Western
Distribution Center operations to a more modern facility. In our review of the
relocation project, we found that the procurement was inadequately
competed and administered, contributing to cost overruns of
72 percent of the original cost estimates. The total cost of the project was in
excess of $39 million, far higher than the $22.7 million estimate. The cost
overruns are due in part to: an abbreviated solicitation schedule that did not
adequately allow for competitive proposals; FSS using an incorrect


                                                   Office of Inspector General vii
                                              Executive Summary



                                         procurement vehicle; and a significant amount of Other Direct Costs being
                                         added without adequately documenting price reasonableness. Better
                                         internal controls could have significantly reduced the cost overruns (page 3).

                                         Contract Management

                                         Limited Use of PBS Facility Management Schedules
                                         The FSS Center for Facilities Maintenance and Hardware established the
                                         Facilities Maintenance and Management Schedules in January 2003. The
                                         services offered include fire alarm maintenance, elevator maintenance,
                                         landscaping, and complete facilities management and maintenance. We
                                         found that PBS employees were not using the FSS schedules extensively.
                                         Some employees believe the schedules do not save time or money, while
                                         others encountered obstacles in trying to use the schedules. Further, Public
                                         Buildings Service (PBS) staff expressed concerns that there were not
                                         enough individual vendors on schedule to provide adequate competition
                                         (page 5).

                                         Disputed Fuel Use Charges Between GSA Fleet and DoD Exceed Millions
                                         Annually
                                         GSA Fleet currently leases over 185,000 vehicles to numerous Federal
                                         agencies. Under its standard lease agreement, Fleet provides fuel for these
                                         vehicles via a charge card for use at commercial gas stations. However,
                                         many DoD employees purchase fuel at Defense Energy Support Center
                                         (DESC) stations located on military bases. The differences between GSA
                                         Fleet and DoD purchase procedures result in billing discrepancies totaling
                                         millions of dollars annually. For example, in FY 2003 the disputed bills
                                         totaled $12 million. During our review we found that currently, the disputed
                                         bills are about $1.7 million. We believe this problem can be corrected by
                                         developing a centralized electronic billing and payment procedure (page 5).

                                         Information Technology

                                         Review of IT Controls of 10 Systems Reveals the Need for Increased
                                         Security Protection
                                         In January 2006, we issued 10 restricted letters to system owners and the
                                         GSA Chief Information Officer detailing the results of our system specific
                                         security control assessments, including technical control weaknesses
                                         identified through our automated vulnerability scanning. We performed
                                         vulnerability scanning on 337 system devices within these 10 systems and
                                         identified 140 critical, 63 major, and 57 minor level vulnerabilities. We found
                                         incomplete implementation of GSA’s certification and accreditation and plan
                                         of action and milestone processes, inadequate contingency planning,
                                         inconsistencies with vulnerability identification and patch management, and
                                         instances of incomplete background checks for contractors operating GSA



viii Semiannual Report to the Congress
     Executive Summary



systems. System security officials informed us that actions necessary to
mitigate the system control vulnerabilities we identified are underway
(page 6).

Major FSS System Lacks Sufficient Disaster Contingency Planning
Federal Supply System 19 (FSS-19) is a mainframe based computer system
which supports over 200,000 customers across government who use this
system to purchase products for government use. We reviewed whether the
FSS-19 system contingency planning efforts were sufficient to recover
system operations within the range of possible disruptions, from a short-term
disruption through a long-term disaster. Although FSS has relied on a
business recovery plan for the mainframe computer, it has not yet developed
a comprehensive FSS-19 specific IT contingency plan to cover all system
components and procedures. We also noted that damage assessment
procedures have not been identified, nor have comprehensive training and
test plans been developed for contingency planning personnel (page 7).

Federal Procurement Data System Needs Improvement to Provide Accurate
and Complete Reporting on Federal Contracting Activities
The newly developed Federal Procurement Data System–Next Generation
(FPDS–NG) collects, processes, and disseminates official statistical data on
Federal contracting activities of more than $2,500 and serves as the central
repository for Federal contracting actions. Our review disclosed certain
contract and system requirements had not been addressed and
discrepancies existed in some data elements in the system, raising concerns
about the reliability of data. In addition, the system could not generate some
key statistical reports for users. We also found security related problems
with insufficient background checks for supporting contractors, and a need
for a more comprehensive approach to monitoring security risks with the
system (page 8).

GSA-Preferred System Development Fatally Flawed
In August 2002, GSA awarded a task order for the design, development, and
technical support of a single, integrated system to replace existing major
systems and databases used to support the FTS IT Solutions national and
regional business programs. The system was created to allow GSA to better
serve the Federal customer with up-to-date project management and
financial data for task and delivery order solutions. In a 2004 review, we
identified several areas of project and technical risk, including system
interface issues with GSA’s financial system. Although nearly $100 million
had been obligated for GSA-Preferred, the project was behind schedule and
over budget, and was failing to meet user requirements. The Agency
subsequently awarded a task order for an independent assessment of
GSA-Preferred. Following the issuance of the consultant’s advisability report
in January 2006, GSA decided to discontinue the implementation of
GSA-Preferred. A migration process is now underway to ensure that the
data used by GSA-Preferred is accurately transferred back to the legacy
systems.

                                                   Office of Inspector General ix
                                           Executive Summary



                                      In addition to the review of the GSA-Preferred System development, we
                                      received a referral from GAO’s FraudNET Operations, alleging
                                      mismanagement of certain task orders and unauthorized user requests
                                      directed to the contractor, the contractor working without approved funding,
                                      and contractor employees traveling without proper authorization. We
                                      reviewed the Hotline complaint and concluded the allegations were valid,
                                      including $1.62 million in unapproved contractor employees’ travel
                                      expenditures (page 9).

                                      E-Gov Travel Initiative—Funding, Schedule, and Performance Risks
                                      The E-Gov Travel Initiative, part of the President’s Management Agenda,
                                      was established to provide a governmentwide, Web-based service that
                                      standardizes, automates, and consolidates the Federal Government’s travel
                                      process and improves cost effectiveness and customer satisfaction. Full
                                      deployment across government is mandated by September 2006. The
                                      E-Gov Travel Program Management Office (PMO) was established within
                                      GSA to centrally manage the initiative and to help agencies transition to the
                                      new E-Gov Travel Services (ETS). It was anticipated that by the end of
                                      FY 2007, the PMO would be fully funded by the GSA Industrial Funding Fee
                                      (IFF). However, our review disclosed that in FY 2005, IFF revenues were
                                      significantly less than anticipated, and the PMO is projecting similar revenue
                                      shortfalls in FY 2006 and beyond. Further, although the PMO has
                                      developed and implemented several effective management practices to
                                      provide adequate oversight of the E-Gov Travel Initiative and support
                                      agencies in transitioning to ETS, many agencies are having difficulty meeting
                                      deployment schedules. The E-Gov Travel Initiative also did not meet all
                                      performance measurement targets. Based on our review, we believe the
                                      PMO should have exercised a more aggressive approach in tracking and
                                      helping agencies with deployment problems (page 10).

                                      Management Controls

                                      Tenant Improvements—Better Oversight and Tracking Needed to Recover
                                      Costs
                                      When the PBS leases space for agency customers, it provides them with a
                                      tenant improvement (TI) allowance to outfit the space with finishes and
                                      fixtures that raise it from a base building to a finished, usable condition that
                                      meets the agency’s unique needs. Tenant improvement costs are then
                                      recaptured from the tenant either as part of the monthly rental rate charged
                                      by GSA, or as a lump sum Reimbursable Work Authorization (RWA). Our
                                      review of tenant improvements in three GSA regions disclosed that PBS’
                                      customers do not always receive the full benefit of the TI allowances and
                                      there was no assurance that all TI costs were captured and passed on to the
                                      tenant agency. We also found instances of costs and rent credits being
                                      amortized beyond the firm term of the lease, and identified 10 RWAs used
                                      for projects and purposes that were inconsistent with the initial intent of the
                                      RWA (page 14).


x Semiannual Report to the Congress
     Executive Summary



Aging Federal Buildings

Building Health Index Should be Expanded to Cover Leased and Delegated
Facilities
The PBS is responsible for over 8,600 owned and leased facilities
throughout the country, each of which has potential environmental and
health concerns. As part of its Environment Management Program, PBS
developed the environmental risk index (ERI), a tool designed to measure
environmental, health, and safety risks in 13 areas, such as hazardous
waste, asbestos, and indoor air quality, for all government-owned buildings.
Our review found that the scope of ERI needs to be expanded to include
leased and delegated facilities, and the database needs several application
controls to increase reliability and accuracy of results. In addition, PBS
needs to ensure that tenants whose activities pose greater risks to the
environment need to clearly understand their responsibilities regarding
environmental hazards. The Environment Program’s National Office needs to
play a stronger role in ensuring that the environmental program initiatives
are coordinated and implemented nationwide (page 15).

Promoting and Protecting Integrity
This period we received criminal, civil, and administrative monetary
recoveries totaling more than $46 million. Our work involved a wide variety
of criminal and civil investigations and reviews, and participation in joint task
forces with other Federal law enforcement agencies.

Criminal Actions—Highlights

A joint investigation by the OIG, the Federal Bureau of Investigation, and the
Department of Defense Criminal Investigative Service led to the conviction of
Congressman Randall “Duke” Cunningham for accepting nearly $2.5 million
in cash and favors for steering Pentagon business to MZM Incorporated, a
government contractor. Congressman Cunningham resigned from public
office and pled guilty to tax evasion and conspiracy and was sentenced to
8 years and 4 months imprisonment, 3 years probation, ordered to pay
restitution in the amount of $1,851,508, and to forfeit equivalent substitute
assets up to this amount. The contractor also pled guilty to conspiracy, use
of interstate facilities to promote bribery, and election fraud (page 17).

A GSA FTS director and deputy director pled guilty to bribery and conspiring
to submit false claims by conspiring with the president of a GSA contractor,
to create task orders in which little or no work was performed (page 17).

The president of GSA contractor Gate Engineering Corporation was found
guilty of paying off the technical services supervisor at Tricon Restaurants
International in exchange for Tricon awarding electrical contracts to Gate. In
addition, the attorney in the Gate case was found guilty by a Federal jury of
conspiracy, witness tampering, and obstruction of an investigation (page 18).


                                                     Office of Inspector General xi
                                             Executive Summary



                                        A Department of Veterans Affairs (VA) employee pled guilty to bribery and
                                        the owner of an auto company pled guilty to fraudulently accepting payments
                                        from VA and to bribery of a government official. The owner agreed to pay
                                        the government over $27,000 in restitution, as well as $150,000 for the cost
                                        of the investigation and prosecution of this matter (page 19).

                                        The owner of World Class Collision defrauded the government by submitting
                                        false and fraudulent estimates for vehicle repairs. Also, the owner of A-Park
                                        Auto Body and Towing in Philadelphia, Pennsylvania, was found guilty of
                                        defrauding the government by submitting false and fraudulent estimates for
                                        vehicle repairs and for possession of firearms by a convicted felon
                                        (page 19).

                                        The owner and operator of two real estate businesses pled guilty to making
                                        false statements in connection with the two buildings he leased to the
                                        Federal Government and agreed to pay $533,265 to settle the civil false
                                        claims charges (page 20).

                                        A former GSA contracting official pled guilty to charges of awarding contracts
                                        to a firm in which her husband had a financial interest. She was ordered to
                                        pay restitution of $161,000 (page 20).

                                        A GSA manager pled guilty to possession of child pornography. The
                                        manager was suspended and sentenced to 18 months supervised probation,
                                        no unsupervised contact with anyone under the age of 18, and no personal
                                        computer at home or Internet access (page 22).

                                        Civil Actions—Highlights

                                        Four GSA contractors, Ernst & Young, International, Inc., KPMG Consulting,
                                        Inc., Bearingpoint, and Booz Allen Hamilton Inc. agreed to pay a total of
                                        $25,608,977 to settle separate qui tam complaints relating to overcharges on
                                        travel-related expenses. The complaints alleged that the contractors
                                        routinely failed to pass along to the government the post-transaction rebates
                                        they received from travel providers such as airlines, hotels, rental car
                                        companies, travel service providers, and credit card companies (page 24).

                                        Two companies that provide office supplies to government customers paid
                                        the government $12.4 million collectively to settle allegations that they
                                        violated the Trade Agreements Act by selling numerous office products to the
                                        government under their GSA contracts that were sourced from impermissible
                                        countries of origin (page 25).

                                        Insight Public Sector, Inc. agreed to pay $1,000,000 to settle its potential civil
                                        False Claims Act liability for allegedly misrepresenting one of its companies
                                        as a small business to GSA contracting officials in the course of responding
                                        to a solicitation (page 25).



xii Semiannual Report to the Congress
     Executive Summary



Tanadgusix Corporation (TDX) and Marisco, LTD (Marisco) agreed to pay a
$450,000 settlement in civil False Claims Act damages for violating the
terms under which it purchased a floating dry-dock from the GSA’s surplus
property program (page 25).

Raised Floor Installation, Inc. was ordered to pay the government $106,000
in connection with the civil fraud complaint brought by the U.S. Attorney’s
Office. The investigation revealed that flooring installed by the contractor did
not meet contract specifications and the contractor submitted false claims to
GSA totaling $60,000 (page 26).

Holiday International Security, a company that provides guard services for
Federal detainees at various hospitals under a PBS contract, agreed to pay
$80,000 to resolve charges it billed for services not provided and for forging
hourly work reports (page 26).

Summary of Results
The OIG made over $248 million in financial recommendations to better use
government funds; made 372 referrals for criminal prosecution, civil litigation,
and administrative actions; reviewed 149 legislative and regulatory actions;
and received 991 Hotline contacts. This period, we achieved savings from
management decisions on financial recommendations, civil settlements, and
investigative recoveries totaling over $724 million. (See page v for a
summary of this period’s performance.)




                                                   Office of Inspector General xiii
                                         OIG Organization Chart


                                               Inspector General
                                                 Brian D. Miller                                 Advisor
                                        Acting Deputy Inspector General                      Robert M. Samuels
                                               Eugene L. Waszily


               Office of Counsel to the IG                                 Office of Internal Evaluation
                   Virginia S. Grebasch                                         James A. Amoroso
                Acting Counsel to the IG                                              Director


     Office of Administration                     Office of Audits                      Office of Investigations
         John C. Lebo, Jr.                      Andrew Patchan, Jr.                         Charles J. Augone
      AIG for Administration                   Acting AIG for Auditing                 Acting AIG for Investigations


        Human Resources                             Audit Operations Staff                         Field Support
            Division

                                                      Administration &                             Zone Offices
            Information                              Data Systems Staff                           Washington, DC
        Technology Division                                                                         New York
                                                                                                     Chicago
                                                                                                    Fort Worth
                                                        Information
                                                                                                  San Francisco
         Administrative &                          Technology Audit Office
      Financial Management
             Division                                                                                   Sub-Offices
                                                       Real Property                                    Philadelphia
                                                        Audit Office                                      Boston
                                                                                                        Kansas City
                                                                                                          Atlanta
                                                  Finance & Administrative                              Auburn (WA)
                                                        Audit Office


                                                    Acquisition Programs
                                                        Audit Office


                                                     Field Audit Offices
                                                       Washington, DC
                                                          Boston
                                                         New York
                                                        Philadelphia
                                                          Atlanta
                                                          Chicago
                                                        Kansas City
                                                         Fort Worth
                                                       San Francisco


                                                          Sub-Office
                                                         Auburn (WA)

xiv Semiannual Report to the Congress
                                  OIG Profile



                      The GSA OIG was established on October 1, 1978 as one of the original
                      12 OIGs created by the Inspector General Act of 1978. The OIG’s five
                      components work together to perform the missions mandated by Congress.

Organization          The OIG provides nationwide coverage of GSA programs and activities. Our
                      components include:

                      • The Office of Audits, an evaluative organization staffed with auditors and
                        analysts who provide comprehensive coverage of GSA operations through
                        program performance reviews, assessment of management controls, and
                        financial and compliance audits. The office also conducts external
                        reviews in support of GSA contracting officials to ensure fair contract
                        prices and adherence to contract terms and conditions. The office
                        additionally provides research, benchmarking, and other services to assist
                        Agency managers in evaluating and improving their programs.

                      • The Office of Investigations, an investigative organization that conducts
                        a nationwide program to prevent, detect, and investigate illegal and/or
                        improper activities involving GSA programs, operations, and personnel.

                      • The Office of Counsel, an in-house legal staff that provides legal advice
                        and assistance to all OIG components, represents the OIG in litigation
                        arising out of or affecting OIG operations, and manages the OIG
                        legislative/regulatory review.

                      • The Office of Internal Evaluation, a quality control staff that provides
                        management assessments of OIG operations and conducts internal
                        investigations and reviews at the direction of the Inspector General.

                      • The Office of Administration, a professional staff that provides
                        information technology, budgetary, administrative, personnel, and
                        communications support and services to all OIG offices.

Office Locations      The OIG is headquartered in Washington, DC, at GSA’s Central Office
                      Building. Field audit and investigation offices are maintained in Boston, New
                      York, Philadelphia, Atlanta, Chicago, Kansas City, Fort Worth, San
                      Francisco, Auburn, and Washington, DC. (A contact list of OIG offices and
                      key officials is provided in Appendix VI.)

Staffing and Budget   As of March 31, 2006, our on-board strength was 291 employees. The
                      OIG’s Fiscal Year (FY) 2006 budget is $48.3 million.




                                                                         Office of Inspector General 1
                                       Management Challenges



                                      Each year since 1998, we have identified and shared with Congress and
                                      senior GSA management what we believe to be the major challenges facing
                                      the Agency. (The current list is summarized on the front inside cover.) This
                                      period we continued our work in addressing these challenges, making
                                      recommendations, and working with management to improve Agency
                                      operations. The following sections highlight our activities in these areas.

                                      Acquisition Programs
                                      GSA provides Federal agencies with products and services valued in the
                                      billions of dollars through various types of contracts. We conduct reviews of
                                      these activities to ensure that the taxpayers’ interests are protected.

                                      FTS Contracting Practices and Agency Improvement Actions
                                      Since FY 2002, we have been performing reviews of contracting practices at
                                      the Federal Technology Service’s Client Support Centers (CSCs). CSCs
                                      help customer agencies define their information technology requirements,
                                      identify sources of products or services, prepare task orders, and assist in
                                      managing projects. In FY 2005, CSC procurements exceeded $3.6 billion,
      Prior audits                    with Department of Defense (DoD) customers representing about 84 percent
  revealed significant                of the business. Our initial audits in 2003 and 2004 identified a number of
     irregularities.                  improper task order and contract awards, including work outside the contract
                                      scope, improper order modifications, frequent inappropriate use of
                                      time-and-materials task orders, and failure to enforce contract provisions.

                                      In response to our audit findings, GSA has initiated a number of
                                      improvement actions to ensure controls are in place in each CSC. The GSA
                                      Administrator, in conjunction with the DoD Director of Defense Procurement
                                      and Acquisition Policy, launched the “Get it Right” initiative to ensure proper
                                      contracting practices. This initiative includes educating and training
                                      acquisition employees, aligning performance measures, publishing new
                                      contracting regulations and procedures, and validating the proper use of
                                      GSA contract vehicles and services. In addition, FTS officials have
                                      implemented a CSC Management Plan across the CSCs that establishes
                                      management and legal reviews of contract and task order awards, and
                                      actions to remediate existing deficient orders. GSA has also deobligated
                                      and returned excess client-agency funds from prior fiscal years, and issued
                                      guidelines to contracting staff on the proper use of fiscal year funding. This
                                      past March, the DoD Comptroller issued a policy memo to all DoD
                                      components regarding the limitations on use of fiscal year funds, and GSA
                                      acquisition officials are working with Defense procurement officials to take
                                      appropriate GSA actions to ensure compliance.

                                      As directed by the Ronald W. Reagan National Defense Authorization Act for
                                      FY 2005, we performed a 2005 joint review with the DoD Office of Inspector
                                      General of each CSC to determine compliance with defense procurement
                                      requirements. We found that 11 of the 12 CSCs were not compliant but



2 Semiannual Report to the Congress
                       Management Challenges



                      Acquisition Programs (continued)

                      were making significant progress toward becoming compliant, and 1 was
                      compliant. We are currently conducting follow-up testing of controls, jointly
                      with the DoD OIG, to determine whether the 11 CSCs are now compliant.
                      The objective of our ongoing review is to test the effectiveness of recent
                      GSA and DoD procurement initiatives, and whether current contracting
                      practices have improved, including meeting DoD and GSA requirements for
                      obtaining competition in awarding task orders. Our review does not include
                      prior deficient task order awards, such as those identified in our earlier
                      reviews, in that GSA has taken actions to remediate past deficient orders,
                      and thus our focus is on new task order awards and the effectiveness of
                      improvement actions. We plan to report on this additional audit work during
                      the next semiannual reporting period.

                      Review of the Western Distribution Center Relocation Project
                      During 2003, the Federal Supply Service (FSS) relocated the Western
                      Distribution Center (WDC) operations to a more modern facility. The
                      decision to relocate and modernize was based on a 2002 feasibility study
                      prepared by an outside consulting firm. The OIG had previously reported on
                      the validity of projected savings for relocating the WDC, and verified actual
                      costs related to the relocation and facility modernization. The purpose of
                      this latest review was to determine whether FSS followed procurement
                      regulations and exercised sound business judgment in awarding and
                      administering the contract for the WDC Relocation Project.

                      In July 2002, FSS awarded the contract to relocate the operations and
                      upgrade the distribution system to the same consulting firm that had
                      performed the feasibility study. This firm was the only bidder for the
                      relocation project. We found that the procurement was inadequately
Relocation contract   competed and administered, contributing significantly to the large cost
 was not properly     overruns. The total cost of the project was in excess of $39 million, far
  competed and        higher than the $22.7 million estimate. In the solicitation process for the
                      relocation, FSS used an abbreviated solicitation schedule that did not
   administered.      adequately allow for competitive proposals, and a solicitation that gave the
                      impression that the consultant was the favored contractor, thereby
                      enhancing its competitive advantage. Finally, use of the FSS’ Logistics
                      Worldwide contract, most commonly referred to as LogWorld Multiple Award
                      Schedule, was not the correct contract procurement vehicle for this project.

                      A significant amount of Other Direct Costs (ODCs) were added to the
                      LogWorld schedule as support products. However, FSS did not adequately
                      document price reasonableness for these products and there is little
                      assurance that the government received the best value for over $8 million of
                      ODCs. Support products for this schedule are defined as ancillary products
                      used in the delivery of a service, including training manuals, CD-ROMs,
                      overhead slides, etc. The WDC specific items added to LogWorld included



                                                                         Office of Inspector General 3
                                       Management Challenges



                                      Acquisition Programs (continued)

                                      items such as lift trucks, shelving and storage, air compressors, sprinkler
                                      systems, and warehouse inventory transfers. These items represented a
                                      significant part of the project and should have been competed on the open
   Effective controls                 market.
       could have
     lessened cost                    These conditions indicated weaknesses in management controls as they
                                      relate to this procurement. Although all of the cost overruns cannot be
        overruns.                     directly attributed to these weaknesses, effective controls could have
                                      significantly lessened them.

                                      As a result, we recommended that the Commissioner of FSS direct the
                                      Assistant Commissioners for Global Supply and Commercial Acquisition to:

                                      • Strengthen management controls over the acquisition process to promote
                                        competition and sound business practices.

                                      • Heighten awareness among employees of the importance of proper
                                        procurement practices.

                                      • Enforce compliance with acquisition policies, regulations, and procedures.

                                      The Acting Commissioner, Federal Acquisition Service, acknowledged and
                                      generally agreed with the recommendations. However, she noted that the
                                      Iraq War and increased inventory levels impacted the cost of the project. In
                                      addition, she disagreed that other direct costs should be limited on a service
                                      contract. While we recognize that there were some additional labor costs
                                      attributed to war supply requirements, they did not have a significant effect
                                      on the relocation. Completion of the project was delayed about 14 months.
                                      The primary cause of the delay was the implementation of the warehouse
                                      management system, which was not related to the war effort. We also
                                      believe that had FSS sought competition for the significant amount of ODCs
                                      added to this project, better pricing could have been obtained.

                                      Contract Management
                                      GSA increasingly accomplishes its mission by using contractors to provide
                                      client services and products. Its multibillion dollar acquisition programs have
                                      expanded rapidly in terms of size, variety, and complexity of the
                                      procurements performed. While many GSA contracts are well crafted and
                                      properly administered, we continue to find a significant number of
                                      weaknesses. Our audit work in recent years has revealed a growing list of
                                      warning signs throughout the acquisition process that suggests the technical
                                      and management skills needed by the procurement workforce to operate in
                                      this more sophisticated arena are not keeping pace with these new
                                      demands.




4 Semiannual Report to the Congress
                   Management Challenges



                  Contract Management (continued)

                  Using Facility Management Schedules
                  In June 2000, the FSS and the Public Buildings Service (PBS) formed an
                  acquisition partnership with the goal of developing national contracting
                  schedules to provide facility management services that would save PBS time
                  and money through quicker awards at lower prices. The FSS Center for
                  Facilities Maintenance and Hardware established the Facilities Maintenance
                  and Management Schedules in January 2003. The services offered include
                  fire alarm maintenance, elevator maintenance, landscaping, and complete
                  facilities management and maintenance.

                  We performed this audit to determine if PBS was effectively using the FSS
PBS employees     schedules. We found that the schedules are not extensively used. Some
                  employees question the benefits of the schedule—they do not believe the
 question the     schedules save time or money—while others have encountered obstacles
benefits of the   when trying to use the schedules. The staff expressed concern that there
  schedule.       were not enough individual vendors on schedule to provide adequate
                  competition since the nature of this service market is such that these
                  businesses tend to operate only in their local geographic areas. Further,
                  regional staff commented that, by using schedules, they would have difficulty
                  meeting socio-economic contracting goals. In the regions we visited, almost
                  all non-Multiple Award Schedule facility service contracts were awarded to
                  small business set-asides or other socio-economic providers. Additionally,
                  some staff were unaware of guidance designed to promote usage of the
                  schedules and provide feedback to Central Office on issues inhibiting usage.

                  In our March 31, 2006 report, we recommended that the Commissioner,
                  PBS, evaluate the most efficient and effective approach to facility
                  management contracting, including fostering more awareness of the
                  schedules and to consider them during market surveys, and working in
                  partnership with FSS to address limitations of the schedules. The
                  Commissioner responded that the option of using the schedules simply
                  provides another tool for contracting professionals. PBS has a concern as
                  to whether these schedules shorten the acquisition period or save significant
                  staff hours and believe that additional analysis is necessary to determine the
                  proper role of these schedules in the PBS acquisition strategy.

                  Fleet’s Purchase of Defense Energy Support Center Fuel
                  GSA’s Fleet currently leases over 185,000 vehicles to numerous Federal
                  agencies. Under its standard lease agreement, Fleet provides fuel for these
                  vehicles. Customers are given a Voyager charge card to fuel the vehicles at
                  commercial gas stations. However, many Department of Defense (DoD)
                  employees purchase fuel at Defense Energy Support Center (DESC)
                  stations located on military bases. DESC stations do not accept Voyager
                  cards. Voyager and DESC bill Fleet for fuel purchased by Fleet’s customers.
                  In order to verify billing information, Fleet requires a listing of individual
                  transactions, including vehicle license plate numbers.

                                                                     Office of Inspector General 5
                                       Management Challenges

                                      Contract Management (continued)

                                      Since DESC began military sales to end-users several years ago, Fleet has
                                      had difficulty obtaining the information needed to validate and pay for fuel its
                                      customers purchased from DESC. Although DESC now electronically
                                      records the information Fleet needs, it converts the information to
                                      voluminous paper bills it distributes to Fleet offices throughout the country.
                                      The process is time consuming, and Fleet has difficulty reviewing and
                                      validating the thousands of transactions involved. The lack of verifiable data
      Centralized                     resulted in disputed bills that reached as high as $12 million in 2003,
   electronic billing                 although disputes have recently been reduced to about $1.7 million.
     and payment
                                      We believe that, with relatively little effort, DESC’s fuel bills and the
  procedures should                   supporting transaction detail could be consolidated into electronic bills
       expedite                       transmitted to one Fleet location for electronic review and payment. While
    processing and                    both organizations have expressed interest, a dispute over past bills has
                                      impeded implementation.
   reduce disputes.
                                      We provided some suggestions and recommendations to Fleet to help
                                      resolve the disputed bills. However, centralized electronic billing and
                                      payment procedures are needed to expedite processing between DESC and
                                      Fleet and greatly reduce future disputes.

                                      Information Technology
                                      GSA is in the process of replacing a number of its legacy information
                                      systems to improve performance and take advantage of technological
                                      advances. Since GSA has had difficulty sharing usable data between
                                      systems, many of the new IT projects are intended to go beyond automating
                                      current business functions and to create real change in the way that GSA
                                      does business. However, GSA systems development projects have typically
                                      experienced significant schedule delays and cost overruns, the need for
                                      frequent redesign, and a prolonged period of time in development.

                                      Review of IT Controls in 10 Systems
                                      In our last semiannual report, we included results of our 2005 overall review
                                      of GSA’s Information Technology (IT) Security Program as required by the
                                      Federal Information Security Management Act (FISMA). The audit assessed
                                      GSA’s IT Security Program, and how well program controls had been
                                      implemented for 10 selected systems across the agency. In January 2006,
                                      we issued 10 restricted letters to system owners and the GSA Chief
                                      Information Officer detailing the results of our system specific security control
                                      assessments, including technical control weaknesses identified through our
                                      automated vulnerability scanning. The letters formally conveyed specific
                                      security information that was discussed with security officials during our
                                      FISMA audit, to assist GSA management with ongoing corrective actions.




6 Semiannual Report to the Congress
                    Management Challenges



                   Information Technology (continued)

                   While GSA’s IT Security Program has continued to improve, inconsistent
                   implementation of program guidance by system owners has resulted in
                   areas of risk that require management attention. Our review of individual
                   system controls found incomplete implementation of GSA’s certification and
                   accreditation and plan of action and milestone processes, inadequate
                   system contingency planning, inconsistencies with vulnerability identification
                   and patch management, and instances of incomplete background checks for
                   contractors operating GSA systems. We performed vulnerability scanning on
                   337 system devices within these 10 systems and identified 140 critical,
                   63 major, and 57 minor level vulnerabilities. System security officials
                   informed us that necessary actions to mitigate the system control
                   vulnerabilities we identified are underway.

                   IT System Contingency Planning
                   Federal Supply System 19 (FSS-19) is a complex, legacy computer system
                   that became operational in 1980 and is currently running on a mainframe
 FSS-19 supports   computer in Eagan, Minnesota, with a test and backup site in Salt Lake City,
   over 200,000    Utah. FSS-19 annually supports over 200,000 customers across
                   government who depend on FSS-19 daily for processing orders for various
customers across   supplies through interconnected systems such as GSA Advantage! and the
   government.     Defense Automated Addressing System. FSS-19 processed approximately
                   $90 million of orders during August and September 2005 for Hurricane
                   Katrina disaster relief efforts.

                   The OIG assessed whether FSS-19 IT contingency planning efforts were
                   sufficient to recover system operations within the range of possible
                   disruptions, from a short-term disruption through a long-term disaster. Our
                   audit identified several weaknesses with GSA’s IT contingency planning
                   policy, procedures, and the system-specific planning in place for FSS-19.
A comprehensive    FSS has relied on a business recovery plan for the mainframe computer, but
                   has not developed a comprehensive FSS-19 IT contingency plan to cover all
    FSS-19 IT      system components and procedures. We found that the business recovery
contingency plan   plan does not recognize the system architecture and facilities for FSS-19,
  has not been     nor has the business impact analysis been incorporated into the recovery
                   plan. The impact analysis could enable the contingency planning
   developed.      coordinator to fully characterize the system requirements, processes, and
                   interdependencies and use this information to determine contingency
                   requirements and priorities. We also noted that damage assessment
                   procedures have not been identified, nor have comprehensive training and
                   test plans been developed for contingency planning personnel.

                   To ensure the effectiveness of contingency planning for FSS-19, we
                   recommended that the FSS Commissioner progressively address the
                   following steps to develop an IT contingency plan in accordance with
                   Agency-wide policy and guidance:



                                                                      Office of Inspector General 7
                                       Management Challenges



                                      Information Technology (continued)

                                      • Clarify the definition and description of FSS-19’s environment and
                                        architecture.

                                      • Finalize an FSS-19 business impact analysis.

                                      • Develop, test, and maintain a comprehensive IT system-specific
                                        contingency plan for FSS-19 that is based on the business impact
                                        analysis.

                                      To improve GSA’s IT system contingency planning, we recommended that
                                      the GSA Chief Information Officer ensure that Agency-wide IT contingency
                                      planning policy and procedural guidance address all key Agency policy
                                      elements necessary for effective IT contingency planning recommended by
                                      the National Institute of Standards and Technology.

                                      Management concurred with recommendations in the report but did take
                                      exception to the conclusion regarding the adequacy of contingency plan
                                      testing for FSS-19. While we commend FSS on the staff’s ability to recover
                                      the mainframe computer, there is no test plan with objectives, expectations,
                                      and goals for the contingency test.

                                      Federal Procurement Data System–Next Generation
                                      The newly developed Federal Procurement Data System–Next Generation
                                      (FPDS–NG) collects, processes, and disseminates official statistical data on
                                      Federal contracting activities of more than $2,500. The FPDS–NG became
       Contract                       operational on October 1, 2003, and Federal agencies are required by the
   monitoring needs                   Federal Acquisition Regulation to report procurement data directly to
    improvement to                    FPDS–NG. Therefore, it is critical that the system provide accurate and
                                      complete procurement data across the Federal Government. While Federal
        ensure                        agencies used the system’s predecessor since 1979, many problems were
   requirements are                   reported over the years that included inaccurate and incomplete data in the
      being met.                      system. FPDS–NG is intended to interface with every government
                                      procurement system in real time to improve the collection and reporting of
                                      accurate and complete procurement data, and serve as the central
                                      repository for statistical information on Federal contracting actions.

                                      The OIG review found certain contract and system requirements had not
                                      been addressed due to insufficient contract monitoring throughout the
                                      development and implementation of the system. Further, some key reports
                                      could not be provided to system users. Improved oversight is an important
   Key reports could                  step toward ensuring that contract and system requirements for FPDS–NG
    not be provided                   have been followed and implemented. Further, maintaining complete and
       to users.                      accurate data within FPDS–NG is critical for producing necessary
                                      procurement reports. A review of a sample of GSA contract data found
                                      discrepancies for some data elements in the system and raised concerns



8 Semiannual Report to the Congress
                       Management Challenges



                      Information Technology (continued)

                      about the reliability of data. During the timeframe of our review, we also
                      assessed system-specific security controls for FPDS–NG as part of our
                      annual Federal Information Security Management Act review. We found that
                      system managers need to ensure that background checks are completed for
                      contractors supporting FPDS–NG, develop a more comprehensive approach
                      to monitoring security risks with the system, and integrate security costs into
                      the life cycle of the system.

                      We believe that strengthening management, operational, and technical
                      controls for FPDS–NG will help to promote user satisfaction and long-term
                      success for this very important system. To this end, we recommended that
                      the GSA Chief Acquisition Officer:

                      • More closely oversee that the contract and system requirements are
                        effectively documented and communicated in a timely manner to the
                        contractor.

                      • Resolve all data element discrepancies and problems in migrating data to
                        the new system.

                      • Ensure that system security weaknesses and corrective actions are
                        continually addressed.

                      The Chief Acquisition Officer (CAO) generally concurred with the findings
                      and recommendations as presented in the report. In response to our audit,
                      the Office of the Chief Acquisition Officer has initiated efforts to improve the
                      management of FPDS–NG, including frequent communication and meetings
                      with the contractor, and addressing system functionality issues, including
                      improving security controls to address vulnerabilities—all aimed at
                      addressing the identified areas of risk in the report.

                      GSA-Preferred
                      In August 2002, GSA awarded a task order for the design, development, and
                      technical support of a single, integrated system to replace existing major
                      systems and databases used to support the FTS IT Solutions national and
                      regional business programs. Originally known as the FTS Third
                      Generational System (3GS), GSA-Preferred was created to help GSA to
                      better serve the Federal customers with up-to-date project management and
                      financial data for task and delivery order solutions.

      System          Our office issued an audit report on the development of the system in
                      February 2004, identifying several areas of project and technical risk that
development fatally   required prompt management attention, including system interface issues
      flawed.         with GSA’s financial system. The report cited that the goals of eliminating
                      manual reconciliation and providing real-time information might not be



                                                                           Office of Inspector General 9
                                        Management Challenges



                                       Information Technology (continued)

                                       reached with the system due to problems with interfacing. At the time of the
                                       review, nearly $100 million had been obligated for GSA-Preferred. The
                                       Agency continued to work on the system development, however the project
                                       remained behind schedule and over budget, and failed to meet user needs
                                       even though more than $65 million had been expended.

                                       In December 2004, the OIG Hotline received a referral from GAO’s
                                       FraudNET Operations complaining of mismanagement by FTS officials
  Unauthorized travel                  pertaining to the task orders originally valued at $67 million for the
                                       GSA-Preferred and the enterprise hosting services for GSA-Preferred. The
    by contractor                      complaint alleged mismanagement of task order requirements, unauthorized
      employees                        user requests directed to the contractor, the contractor working without
       exceeded                        approved funding, and contractor employees traveling without proper
                                       authorization. We reviewed the Hotline complaint and concluded that the
     $1.6 million.                     allegations were valid. The contractor employees traveling without
                                       authorization was a particularly glaring problem, resulting in $1.62 million in
                                       unapproved travel expenditures.

                                       During this same time period, the Agency awarded a task order for an
                                       independent assessment of GSA-Preferred. Following the issuance of a
                                       consultant’s advisability report in January 2006, GSA decided to discontinue
                                       the implementation of GSA-Preferred. Management determined that
                                       continuing with the system would not be in the best interest of GSA’s
                                       employees and Federal customers. A migration process is now underway to
                                       ensure that the data used by GSA-Preferred is accurately transferred back
                                       to the legacy systems.

                                       Our report addressing the issues raised in the Hotline referral was provided
                                       to the Acting Commissioner, Federal Technology Service on March 1, 2006.
                                       In this report, we recommended that the GSA-Preferred Functional Program
                                       Executive direct his staff to address the issues that were identified in the
                                       Hotline complaint. Also, we recommended that a full-time contracting officer
                                       and contracting officer’s representative should be maintained during the data
                                       migration process from GSA-Preferred back to the legacy systems. For any
                                       future projects, we recommended that the task order limit contractor travel
                                       costs to only that travel necessary for system training and testing.
                                       Additionally, we suggested that any future replacement effort utilize the
                                       services of an Independent Validation and Verification contractor and
                                       implement the Office of Management and Budget’s project management
                                       tool—Earned Value Management—to control costs and more vigorously
                                       manage the project. Management concurred with the overall findings and
                                       recommendations in the report.

                                       E-Gov Travel
                                       The President’s Management Agenda focuses on improving management
                                       within five areas of the Federal Government, one of which is Expanded

10 Semiannual Report to the Congress
                      Management Challenges



                     Information Technology (continued)

                     Electronic Government (E-Gov). E-Gov Travel, one of the 25 E-Gov
                     initiatives, was launched in April 2002 to reengineer the Federal
                     Government’s travel process to realize significant cost savings, efficiencies,
                     and increased service. Over the years, agencies have developed numerous
                     expensive in-house travel systems that have inconsistent, redundant, and
                     labor-intensive processes and procedures. The goal of the E-Gov Travel
                     Initiative is to replace the existing systems within agencies and provide a
                     governmentwide Web-based service that standardizes, automates, and
                     consolidates the Federal Government’s travel process. The initiative is
                     designed to improve cost effectiveness and customer satisfaction while
                     leveraging administrative, financial, and information technology best
                     practices. GSA was designated Managing Partner for the initiative and in
                     March 2002, the E-Gov Travel Program Management Office (PMO) was
                     established within GSA to centrally manage the initiative and its travel
                     process reengineering efforts. The PMO was also tasked with facilitating
                     knowledge sharing and best practice exchanges among the agencies in
                     support of their individual implementation efforts.

                     In November 2003, the PMO awarded contracts to three vendors to provide
                     an E-Gov Travel Service (ETS). A January 2004 amendment to the Federal
                     Travel Regulation requires agencies to reach full deployment by
   Twenty-three      September 30, 2006. As of September 2005, 23 agencies had signed task
  agencies have      orders with ETS vendors and 7 agencies had begun using ETS. Funding for
signed task orders   the PMO has been provided both through the General Supply Fund and the
                     GSA Industrial Funding Fee (IFF), with the expectation that the PMO will be
with E-Gov Travel    entirely self-sustaining by the end of FY 2007 via the IFF. We performed this
 Service vendors.    review to determine if GSA is providing adequate oversight and
                     management of the E-Gov Travel Program, assisting agencies to accomplish
                     established milestones and timeframes, identifying and mitigating risks, and
                     meeting performance measures.

                     The E-Gov Travel Program Management Office has developed and
                     implemented several effective management practices to provide adequate
                     oversight of the E-Gov Travel Initiative and support agencies in transitioning
                     to ETS. However, our review disclosed that cost, schedule, and
                     performance risks exist. The FY 2005 IFF revenues were significantly less
                     than anticipated and the PMO is projecting a similar outcome in FY 2006.
                     For our sample of voucher activity at five agencies, we noted that although
Revenue shortfalls   the PMO had forecasted revenue from over 50,000 transactions, the actual
   are likely to     number processed was less than 16,000. If current trends continue, the
    continue.        PMO will not meet its expectation of achieving a self-sustained level of
                     operation by the end of FY 2007. Our review showed that IFF revenue
                     shortfalls would most likely continue to impact E-Gov Travel funding beyond
                     2007. Although the PMO is taking steps to mitigate the funding risk, it needs
                     to verify the reasonableness of IFF revenue estimates for FY 2007 and
                     beyond, reassess the projected timeframe for self-sufficiency, and notify the


                                                                       Office of Inspector General 11
                                        Management Challenges



                                       Information Technology (continued)

                                       appropriate officials that contingencies must be established since additional
                                       funding needs are probable.

                                       The PMO has faced challenges in supporting agencies to meet established
                                       milestones and timeframes. Many agencies have experienced significant
                                       deployment schedule slippage, contributing to the IFF shortfalls and the
                                       inability to meet performance measures. Various factors have affected the
                                       ability of ETS vendors and agencies to remain on schedule and the PMO’s
                                       effectiveness in managing the initiative. Although some of these challenges
                                       were unforeseeable or out of the PMO’s control, we concluded that better
                                       planning and guidance of individual agency migration tasks and overall
                                       deployment timeframes may have helped to mitigate the impact of some
                                       delays in the deployment schedule. Based on our review of the PMO’s
                                       issue tracking log, it appears that the PMO effectively managed the majority
                                       of the issues; however, our review disclosed cases in which we question the
                                       effectiveness of the PMO in managing issues to a timely, successful
                                       resolution. It is our opinion that the PMO should have exercised a more
                                       aggressive approach in obtaining resolutions. We found shortcomings in the
                                       PMO’s methodology to estimate and substantiate deployment timeframes,
                                       possibly affecting the accuracy of key business decisions.

                                       The E-Gov Travel Initiative did not meet all of its performance measure
                                       targets. For the initiative to fully realize the cost savings associated with a
                                       fully deployed ETS and enable the PMO to progress toward being
                                       self-funded, performance measures must be met.

                                       In our March 6, 2006 report, we recommended that the Acting
                                       Commissioner, Federal Supply Service:

                                       • Develop realistic IFF revenue estimates with a contingency plan to
                                         address revenue shortfalls.

                                       • Identify opportunities for more proactive PMO involvement in resolving
                                         issues to minimize deployment delays.

                                       • Create more customized guidance to help agencies develop reasonable
                                         deployment and migration task timeframes and develop a formal
                                         methodology to verify that these timeframes are achievable.

                                       • Update Memoranda of Understanding for agencies with a high risk of
                                         deployment delays to allow the PMO to make the necessary adjustments
                                         in their planning and budgeting decisions.

                                       The Acting Commissioner concurred with our recommendations.




12 Semiannual Report to the Congress
                        Management Challenges



                       Management Controls
                       Multiple management controls and extensive supervisory reviews have been
                       replaced, through streamlining efforts, by fewer and broader controls,
                       making it essential that the remaining control processes be emphasized and
                       consistently followed. Streamlined processes have helped GSA achieve its
                       goal of serving customers more quickly and efficiently; however, the Agency
                       is exposed to the risk of mismanagement and abuse if program officials do
                       not ensure the faithful application of existing safeguards.

                       CONNECTIONS Program Contract
                       The CONNECTIONS contract provides Federal telecommunications
                       equipment, services, and solutions for Federal agencies. It offers client
                       agency customers a wide range of choices from small equipment purchases
                       to complex integrated solutions. Since April 2004, CONNECTIONS task
                       orders have exceeded $73 million. At the request of the Federal Technology
                       Service (FTS) Assistant Commissioner for Regional Services, we conducted
                       an audit of regional use of CONNECTIONS, focusing on whether controls
                       were in place to ensure task orders were properly managed, contract
                       provisions and procurement regulations were adhered to, and line items
                       were verified by the regions to ensure correct pricing. The scope of our
                       review included task orders awarded after April 2004.

                       We found that several problems exist in the use of the CONNECTIONS
                       contract at the regional level. In particular, ordering offices were not
      Identified       verifying that proposed contract line item numbers were valid and that the
                       proper contract category was being selected. These problems can result in
deficiencies are not   client agencies paying excessive prices for products and services. In
reported to regional   addition, we noted that the use of an incorrect contract category could affect
       offices.        the level of competition and result in excessive other direct costs. Although
                       the Program Office developed a Web-based application for easy verification
                       of proposed contract line items, some ordering offices were not using the
                       application because they were not aware of it or had difficulty using it. We
                       also found users sometimes misinterpreted the three contract categories.

                       The CONNECTIONS Program Office performs reviews of task orders
                       prepared by GSA for client agencies to identify potential problems with the
                       award or administration of the task orders. Noted deficiencies, such as use
                       of the wrong category, excessive other direct costs, invalid contract line item
                       numbers, and inadequate price competition were identified, but not
                       corrected. We concluded that the results of these reviews were not
                       communicated to the appropriate regional offices that could have taken
                       corrective action and prevented recurring problems.

                       In our January 20, 2006 report, we recommended that the Acting
                       Commissioner, Federal Acquisition Service, direct the Program Office to
                       implement a training program that:



                                                                          Office of Inspector General 13
                                        Management Challenges



                                       Management Controls (continued)

                                       • Emphasizes the contract line item verification process.

                                       • Improves the selection of the appropriate contract category and
                                         documentation of the selection rationale.

                                       • Instructs the regional offices in the use of Program Office reviews that will
                                         be tracked by a coordinator.

                                       Management agreed with the recommendations and has implemented
                                       additional actions to improve the program.

                                       Tenant Improvements
                                       When PBS leases space for agency customers, it provides them with a
                                       tenant improvement (TI) allowance to outfit the space with finishes and
                                       fixtures that raise it from a base building, or “shell,” to a finished, usable
 PBS billed agencies                   condition that meets the agency’s unique needs. During the lease
                                       acquisition process, PBS negotiates an estimated TI component with the
 nearly $139 million                   lessor as part of the rent rate. Tenant improvement costs are then
      for tenant                       recaptured from the tenant either as part of the monthly rental rate charged
  improvements in                      by GSA, or as a lump sum Reimbursable Work Authorization (RWA). In
                                       FY 2004, PBS billed agency tenants almost $139 million for tenant
    leased space.                      improvements in leased space. Our audit objective was to determine
                                       whether PBS effectively manages the TI process, that costs are reasonable,
                                       and that project oversight protects the interest of the government.

                                       Our review of tenant improvements in three GSA regions disclosed the need
                                       for better oversight of the tenant improvement process in leased space.
                                       Management of the TI process varied considerably based on the level of
                                       involvement by PBS employees or contractors, as well as the degree of
                                       influence from the tenant agency. While there was usually some evidence to
                                       reflect PBS’ efforts to obtain fair and reasonable prices for the projects,
                                       additional actions are needed to give PBS’ customers the full benefit of their
                                       tenant improvement allowances. Several of the twenty files we reviewed
                                       contained limited supporting documentation related to competition,
                                       negotiation, and evaluation of the specifics of the lessor’s TI costs, while five
                                       files had no documentation.

                                       We found that financial management of the TI process varied significantly
                                       among projects reviewed. Due to wide variances in cost-tracking efforts by
                                       PBS, we were not always able to determine whether all TI costs were
                                       captured and passed on to the tenant agency. We also encountered other
                                       payment issues, such as costs and rent credits being amortized beyond the
                                       firm term of the lease, and paying lessors for tenant improvements months
                                       before the build-out work began. In addition, we identified 10 RWAs used
                                       for projects and purposes that were inconsistent with the initial intent of the
                                       RWA.

14 Semiannual Report to the Congress
                       Management Challenges



                      Management Controls (continued)

                      Finally, we assessed the extent of project management to determine whether
                      PBS aggressively managed the build-out to ensure that costs were
                      controlled and tenant needs were met. There was little evidence of active
Conditions cited in   project management for several of the projects we reviewed.
 our report could
have been avoided     PBS has provided policy, guidance, and training to its staff to assist them in
                      optimally performing TI-related tasks. Many of the conditions cited in our
  by consistent       report could have been avoided by consistent implementation of the policy.
implementation of
                      In our March 31, 2006 report, we recommended that the PBS Commissioner:
      policy.
                      • Take steps to improve the tenant improvement process by ensuring PBS
                        employees follow established guidance for assessing cost reasonableness
                        and processing RWAs.

                      • Initiate a standardized methodology for tracking and reconciling TI costs,
                        provide guidance and training related to the suggested format of cost
                        proposals, and ensure that either PBS or a contractor actively manages TI
                        projects.

                      The PBS Commissioner generally concurred with the report
                      recommendations.

                      Aging Federal Buildings
                      GSA is challenged to provide quality space to Federal agencies in a
                      competitive environment with an aging, deteriorating inventory of buildings
                      and critical budgetary limitations. PBS estimates that it would take over
                      $6 billion to bring the building inventory up to industry standards. GSA
                      needs to determine which buildings represent the greatest risk from a safety
                      and operational perspective, which buildings will yield the best return on
                      investment, and how to fund the highest priority projects in a timely manner.

  Tenants whose       Environment Program Management
  activities pose     PBS is responsible for over 8,600 owned and leased facilities throughout the
                      country, each of which have potential environmental and health concerns.
greater risk to the   To ensure that GSA effectively carries out its social, environmental, and other
environment need      obligations as a responsible steward of Federal facilities, PBS designed an
    to clearly        Environment Management Program. Key elements of this program include
                      developing an environmental risk index (ERI), environmental liability
 understand their     reporting, and safeguards for tenant management of hazardous materials in
 responsibilities     PBS-controlled space. ERI is a tool designed to measure environmental,
    regarding         health, and safety risks in 13 areas, such as hazardous waste, asbestos,
                      and indoor air quality, for all government-owned buildings.
  environmental
     hazards.         We performed this review to analyze PBS’ environmental management
                      system (EMS) and improvement actions since our last audit. At the time of

                                                                         Office of Inspector General 15
                                        Management Challenges



                                       Aging Federal Buildings (continued)

                                       our previous audit in February 2000, PBS was just establishing an
                                       organization dedicated to environmental affairs at the national level, and was
                                       in the process of developing an overall strategy for implementing a
                                       nationwide environmental system.

                                       We found that progress on the EMS has been slow since the 2000 audit and
                                       that regional EMS efforts were not coordinated. For the system to be fully
                                       effective, the Environment Program’s National Office needs to play a
                                       stronger role in ensuring that program initiatives are carried out, regional
  The environmental                    efforts are coordinated, and the national EMS is implemented effectively in
  risk index needs to                  the regions. To improve the identification and management of environmental
                                       risks, the scope of ERI needs to be expanded to formally include leased and
  include leased and                   delegated facilities and the ERI database needs several application controls
  delegated facilities.                to increase reliability and accuracy of results. In addition, PBS needs to
                                       provide additional oversight to ensure the environmental liability report is
                                       accurate and complete. In one of the regions we reviewed, the report failed
                                       to include some liabilities that met the criteria for reporting, yet included sites
                                       where remediation had been completed. Finally, PBS should apply a
                                       risk-based approach to identify and manage those tenants whose activities
                                       pose a greater risk to the environment (e.g., laboratories, firing ranges,
                                       vehicle maintenance, and light industrial activities) and execute a written
                                       agreement to ensure tenants clearly understand their responsibilities
                                       regarding environmental hazards.

                                       In our March 28, 2006 report, we recommended that PBS:

                                       • Develop and implement a regional strategy for the national environmental
                                         management system and conduct third party reviews of the system.

                                       • Expand the scope of the ERI to include leased and delegated facilities.

                                       • Strengthen environmental liability reporting through closer oversight of
                                         each region.

                                       The Commissioner concurred with our findings and recommendations and
                                       indicated that the program will address the issues presented in our report as
                                       well as PBS’ own internal reviews.

                                       We also issued a separate report to one region where we identified a
                                       specific need to expand the ERI to include delegated facilities and to
                                       improve the accuracy of liability reporting. The Regional Administrator fully
                                       agreed with our conclusions.




16 Semiannual Report to the Congress
                       Promoting and Protecting Integrity



                          GSA is responsible for providing working space for almost one million
                          Federal employees. The Agency also manages the transfer and disposal of
                          excess and surplus real and personal property and operates a
                          governmentwide service and supply system. To meet the needs of customer
Criminal, civil, and      agencies, GSA contracts for billions of dollars worth of equipment, supplies,
                          materials, and services each year. We conduct reviews and investigations in
  administrative          all these areas to ensure the integrity of the Agency’s financial statements,
    monetary              programs, and operations, and that the taxpayers’ interests are protected. In
recoveries totaled        addition to detecting problems in these GSA programs and operations, the
                          OIG is responsible for initiating actions to prevent fraud, waste, and abuse
    more than             and to promote economy and efficiency. When systemic issues are
   $46 million.           identified during investigations, they are shared with GSA management for
                          appropriate corrective actions. During this period, criminal, civil, and
                          administrative monetary recoveries totaled more than $46 million.

                          Significant Criminal Actions
                          Former Congressman Randall “Duke” Cunningham Pleads Guilty to
                          Conspiracy and Tax Evasion
                          A joint investigation by the OIG, the Federal Bureau of Investigation, and the
                          Department of Defense, Defense Criminal Investigative Service was initiated
                          when it was alleged that Congressman Randall “Duke” Cunningham might
                          have applied undue influence to ensure that MZM Incorporated (MZM), an
                          authorized vendor on the GSA Multiple Award Schedule (MAS) Program,
                          received congressional funding under a congressional mandate. MZM, a
                          defense contractor, has two contracts with GSA. In April 2002, MZM was
                          awarded a contract for general-purpose commercial information technology
                          equipment, software, and services. In July 2005, it was awarded a contract
                          for management, organization, and business improvement services.

                          On February 23, 2006, the owner of MZM pled guilty to conspiracy, use of
                          interstate facilities to promote bribery, and election fraud. He faces a
                          possible 11 year sentence and a fine, and is scheduled to be sentenced in
                          fall 2006.

                          On November 28, 2005, Congressman Cunningham resigned from public
                          office and confessed to accepting nearly $2.5 million in cash and favors in
                          exchange for steering Pentagon business to MZM. He pled guilty to tax
                          evasion and conspiracy. On March 3, 2006, he was sentenced to 8 years
                          and 4 months imprisonment, 3 years probation, ordered to pay restitution in
                          the amount of $1,851,508, and to forfeit equivalent substitute assets up to
                          this amount.

                          Two Former GSA Officials Plead Guilty to Bribery and False Claims
                          An investigation was initiated when it was reported that two GSA officials
                          conspired with the president of a GSA contractor to submit false claims
                          pursuant to a basic ordering agreement GSA had entered into with the
                          company.


                                                                            Office of Inspector General 17
                              Promoting and Protecting Integrity



                                       The investigation revealed that the GSA FTS director and deputy director
                                       both conspired with the company president to create task orders in which
    Two former GSA                     little or no work was performed. The director awarded these task orders and
                                       allowed its president to bill GSA for services not rendered. He also created
     officials plead                   a completely fictitious task order that he directly awarded the firm knowing
    guilty in bribery                  that no work was to be performed. The director and the president agreed to
        scheme.                        use the money GSA paid to fund the director’s future employment with the
                                       company once he retired from GSA, with the remaining funds going to the
                                       president.

                                       On March 3, 2006, both the former FTS director and the former FTS deputy
                                       director pled guilty to bribery, conspiring to submit false claims, and aiding
                                       and abetting. The former director is scheduled to be sentenced on
                                       June 20, 2006, and the former deputy director is scheduled to be sentenced
                                       on June 6, 2006.

                                       Contractor Found Guilty on Charges of Conspiracy
                                       A joint investigation by the OIG, the U.S. Department of Justice, Antitrust
                                       Division, and the Small Business Administration OIG disclosed that the
                                       president of GSA contractor Gate Engineering Corporation (Gate) was
 Corruption found in                   paying off the technical services supervisor at Tricon Restaurants
    Puerto Rico                        International (Tricon), Puerto Rico, in exchange for Tricon awarding electrical
                                       contracts to Gate.
     contracts.
                                       The investigation revealed that the technical services supervisor conspired
                                       with the president of Gate. While employed with Tricon, the supervisor
                                       received $31,000 in payoffs from the president of Gate in exchange for
                                       directing over one million dollars in electrical contract work to Gate. Most of
                                       the payments from Tricon to Gate for this electrical work were made through
                                       the U.S. mail. Gate and its president previously pled guilty on May 19, 2005.

                                       A Federal jury found the supervisor guilty on a charge of conspiracy. On
                                       November 15, 2005, he was sentenced to 12 months and 1 day
                                       incarceration and 2 years supervised release.

                                       Also, the attorney in the Gate case was found guilty on March 22, 2006, by a
                                       Federal jury of conspiracy, witness tampering, and obstruction of an
                                       investigation. His sentencing is scheduled for June 29, 2006.

                                       President of Supply Company Sentenced for Wire Fraud
                                       An investigation was initiated when it was reported that GSA customers were
                                       receiving substandard quality products from a GSA contract supplier. The
                                       investigation disclosed that a supply company, Ralrube, Inc., (RI) and three
                                       of its suppliers filled orders for products with labels containing false dates of
                                       manufacture that were placed over the original equipment manufacturer’s




18 Semiannual Report to the Congress
                   Promoting and Protecting Integrity



                       labels, concealing the true dates of manufacture. It was revealed that the
                       president of RI conspired with the suppliers to defraud the government
                       through false wire transfers and by billing GSA for freight costs which were
                       not incurred.

                       On January 17, 2006, the president of RI was sentenced in U.S. District
                       Court to home confinement with electronic monitoring for a period of
                       6 months, 2 years probation, and ordered to pay restitution in the amount of
                       $35,000 and a monetary fine of $20,000. On January 26, 2006, a general
                       manager of one of the supply companies was sentenced to 12 months
                       probation and ordered to pay restitution in the amount of $27,694 and a
                       monetary fine of $10,000. Sentencing is pending for the third individual
                       involved.

                       GSA Contractor Pleads Guilty to Bribery
                       A joint investigation by the OIG, Federal Bureau of Investigation, and the
                       Department of Veterans Affairs (VA) OIG was initiated when it was reported
  GSA contractor       that numerous billing irregularities for parts, labor, and other services for the
                       maintenance of government vehicles assigned to the VA Medical Center in
   pled guilty to      West Haven, Connecticut were made using a GSA IMPAC card.
    bribery of a
government official.   The investigation disclosed that the VA employee assigned the IMPAC card
                       was responsible for the maintenance and repair of both VA-owned vehicles
                       and GSA-leased vehicles. It was also disclosed that the owner of an auto
                       company provided the VA employee with items of value, cash, and checks to
                       approve work on government vehicles that was not needed, not performed,
                       and/or previously billed.

                       Pursuant to a plea agreement, the employee pled guilty to bribery. Also
                       pursuant to a plea agreement, the owner of the auto company pled guilty to
                       fraudulently accepting payments from VA and the company pled guilty to
                       bribery of a government official. Sentencings for both have not been
                       scheduled. As part of the plea agreement, in addition to any fine imposed,
                       the owner agreed to pay the government over $27,000 in restitution, as well
                       as $150,000 for the cost of the investigation and prosecution of this matter.

                       Owners of Two Auto Body Shops Plead Guilty to Wire Fraud
                       An investigation was initiated when the GSA Mid-Atlantic Region’s
                       Philadelphia Fleet Management Center reported that two automobile body
                       shops in Pennsylvania were involved in possible bid collusion and false
                       statements and claims concerning the repair of GSA leased vehicles.

                       The investigation determined that the owner of World Class Collision in
                       Lester, Pennsylvania defrauded the government by submitting false and
                       fraudulent estimates for vehicle repairs from April 2001 through March 2004.
                       A review of facsimile communications determined that the owner created
                       “losing” estimates from one vendor and solicited fraudulent estimates from


                                                                            Office of Inspector General 19
                              Promoting and Protecting Integrity



                                       another vendor and then provided them to GSA. He pled guilty to wire fraud
                                       and was sentenced to 3 years probation and ordered to pay a fine of $5,000.

                                       Also charged with wire fraud as a result of the investigation was the owner
                                       of A-Park Auto Body and Towing in Philadelphia, Pennsylvania, who
                                       submitted false and fraudulent estimates for vehicle repairs from
                                       January 2002 through March 2004. He was also charged with possession of
                                       firearms by a convicted felon and pled guilty to both charges. His
                                       sentencing has not been scheduled.

                                       Owner of Real Estate Investment Companies Pleads Guilty to Making
                                       False Statements
                                       The owner and operator of two real estate investment businesses, Sant
                                       Properties and HB Properties, leased two commercial buildings to GSA,
                                       which were to be used by the Internal Revenue Service in Philadelphia,
                                       Pennsylvania. Under the terms of the leases, GSA was to reimburse these
    Lessor submits                     companies for the real estate taxes paid to the City of Philadelphia. The
     fraudulent tax                    investigation disclosed that the owner knowingly submitted false and
  receipts to GSA for                  fraudulent documentation to GSA, purporting to represent receipts for real
                                       estate taxes paid by Sant Properties and HB Properties. In reliance on the
        payment.                       false and fraudulent documentation, GSA overpaid Sant Properties and HB
                                       Properties an amount exceeding $178,000 for real estate taxes.

                                       In parallel criminal and civil court proceedings, on December 13, 2005, the
                                       owner agreed to pay restitution to the United States in the amount of
                                       $533,265 to settle the civil false claim charges. Additionally on
                                       December 23, 2005, he pled guilty to making false statements to GSA
                                       officials in connection with the two buildings he leased to the Federal
                                       Government. He was released on bail and is scheduled to be sentenced on
                                       April 20, 2006.

                                       Former GSA Contracting Official Pleads Guilty to Conflict of Interest
                                       An investigation was initiated when an anonymous written complaint to the
                                       GSA OIG Hotline alleged that a GSA contract specialist was awarding
                                       contracts for disposable food service items to a Fort Worth business in which
     GSA contract                      she and her husband had a financial interest.
   specialist guilty of
    acts affecting a                   The investigation disclosed a financial relationship between the contract
                                       specialist and a food service contractor for her personal benefit. The
   personal financial                  specialist influenced the award of a 5-year GSA Multiple Award Schedule
        interest.                      contract, and nine blanket purchase agreements with the food service
                                       contractor, resulting in the purchase of $8,230,295 in food service items from
                                       the contractor. She also made 432 open market purchases from the
                                       contractor totaling $4,038,959. During this time, she never advised her
                                       supervisor that her husband worked for the contractor or that she was
                                       related to the principal owner of the contractor through her husband.



20 Semiannual Report to the Congress
                    Promoting and Protecting Integrity



                       The specialist pled guilty to criminal charges of committing acts affecting a
                       personal financial interest and retired from GSA. On December 9, 2005, she
                       was sentenced to 180 days of home confinement, 5 years probation, and
                       ordered to pay restitution in the amount of $161,000.

                       GSA Foreman Pleads Guilty to Theft
                       An investigation was initiated when it was reported that GSA Switchgear
                       Shop employees were fraudulently claiming overtime hours not worked. The
                       investigation revealed that all of the electricians assigned to the shop made
                       these claims at the direction of their general foreman. It was found that the
                       general foreman falsified his own time and directed the electricians to
                       increase their Saturday overtime shifts by approximately 2 hours each shift.

                       The investigation identified a room in the basement of a Department of
                       Agriculture Building in Washington, DC, that was used by the electricians to
                       sleep during their midnight shifts. A surveillance camera captured one of the
                       electricians sleeping in the room during 5 midnight shifts for an average of
 GSA employees
                       approximately 4.5 hours each shift. He then reported on his Time Report
found sleeping on      that he performed 8 hours of preventive maintenance (PM) work each day
     the job.          that he was recorded sleeping. He fraudulently completed and signed PM
                       sheets reporting he performed the required work on the dates he was
                       videotaped sleeping. A review of past logs revealed that he merely copied
                       the old test results from the previous years’ PM sheets and wrote them on
                       the new sheets without actually performing the required tests.

                       The general foreman retired, pled guilty to theft, and was sentenced to
                       1 year probation, 100 hours of community service, and ordered to pay
                       restitution in the amount of $6,958. One of the electricians was terminated,
                       pled guilty to false claims, and was sentenced to 2 years probation, and
                       ordered to pay restitution in the amount of $1,057 and a fine of $1,000.

                       GSA Contractor Pleads Guilty to Theft of Government Funds
                       An investigation was initiated when a GSA realty specialist reported potential
                       fraud by the president of DMG Workplace Solutions, Inc. (DMG) relating to
                       the GSA Life Act Project (LAP) located in Garden City, New York. The LAP
                       is a GSA construction project to expand the space on the second and third
                       floors of a building housing the U.S. Immigration and Customs Enforcement.
                       DMG is the GSA Public Buildings Service Construction Quality Management
                       contractor for this project.

                       The investigation disclosed that DMG was inflating the work hours of one of
                       its subcontractors on the project prior to submitting invoices to GSA for
                       payment. The loss to the government is approximately $16,500. The
                       president, pursuant to a plea agreement, pled guilty to theft of Federal funds
                       and was sentenced to 2 years supervised probation and ordered to pay a
                       $2,000 fine and $16,537 in restitution.




                                                                         Office of Inspector General 21
                              Promoting and Protecting Integrity



                                       GSA Manager Guilty of Trafficking Child Pornography
     GSA manager                       A joint investigation by the OIG and the U.S. Postal Inspection Service was
                                       initiated when an undercover investigation of pre-teen adult oriented material
       caught in                       revealed that a GSA manager made e-mail arrangements to purchase illegal
    undercover child                   pornographic material from an undercover Special Agent. The manager
      pornography                      was suspended and pled guilty to possession of child pornography. He was
                                       sentenced to 18 months supervised probation, no unsupervised contact with
       operation.                      anyone under the age of 18, and no personal computer at home or Internet
                                       access.

                                       Former GSA Employee Pleads Guilty to Making Fraudulent Claims
                                       An investigation was initiated when it was reported that a GSA property
                                       manager, who was being transferred from a position in California to Hawaii,
                                       purportedly falsified his relocation expense voucher.

                                       The investigation revealed that the former manager made false claims by
                                       indicating on a benefits application that he was married at the time he
                                       completed the form when in actuality he got married a year later. As a
                                       result, over $5,000 in medical benefits were fraudulently charged to the
                                       government. He also submitted a fraudulently backdated receipt for the
                                       purchase of household goods for $30,000.

                                       His employment was terminated and he was convicted for making fraudulent
                                       claims against the government. On February 13, 2006, he was sentenced to
                                       24 months of supervised release, 90 days of home confinement, and
                                       ordered to pay restitution.

                                       GSA Employee Pleads Guilty to Theft of Government Funds
                                       A joint investigation by the OIG, U.S. Housing and Urban Development
                                       (HUD) OIG, and U.S. Postal Inspection Service was initiated when it was
                                       reported that a GSA employee had applied for a grant from the Lower
                                       Manhattan Development Corporation (LMDC) using false information. The
                                       HUD block grant program was developed to encourage individuals to reside
                                       in the lower Manhattan area after the September 11, 2001, terrorist attacks
                                       on the World Trade Center.

                                       The investigation disclosed that the employee did not reside in a Manhattan
                                       apartment although she submitted sworn statements to LMDC that she
                                       resided there. The investigation also disclosed that she claimed to live there
                                       in order to obtain a rent subsidy under the block grant provided by HUD to
                                       LMDC. She pled guilty to theft of government property and returned the
                                       grant money.

                                       Fleet Charge Card Abuse
                                       The GSA OIG has an ongoing proactive investigative project to identify and
                                       investigate fraud associated with the misuse of GSA-issued fleet charge
                                       cards. During this period, five individuals pled guilty in connection with
                                       cases arising out of investigations.

22 Semiannual Report to the Congress
                   Promoting and Protecting Integrity



                       • An investigation was initiated when a review of fuel purchases at a gas
                         station in Washington, DC revealed that fleet card purchases were double
                         billed on purchases made by GSA, the U.S. Postal Service, Washington
                         Sewer Authority, and D.C. Public Works. The fuel purchases totaled
                         approximately $170,000. The owner of the station pled guilty to wire fraud
                         in connection to fraudulently double billing for fuel purchases on a fleet
                         card. He is scheduled to be sentenced on June 2, 2006.

                       • A joint investigation by the OIG and the Department of State (State) OIG
                         determined that a State employee was using a fleet card assigned to him
                         to make multiple purchases of gas on the same day at various gas
                         stations. The employee pled guilty to theft charges and was sentenced to
                         80 hours community service and ordered to pay restitution in the amount
                         of $5,259.

                       • An employee with the Creek Nation Health System used a fleet card
     Proactive           assigned to him for his personal profit. The investigation revealed that he
 investigations led      failed to turn in his monthly expense report with fuel receipts and made
 to multiple arrests     multiple charges on the same day, weekends, holidays, and before and
                         after his official duty hours. He pled guilty to theft charges and his
involving GSA fleet      employment was terminated. He was sentenced to 4 months home
   charge cards.         detention and ordered to pay restitution in the amount of $5,105.

                       • A joint investigation by the OIG and the Department of Veterans Affairs
                         (VA) OIG determined that a VA employee was using a fleet card that was
                         assigned to him to purchase gas for his personal gain. The employee
                         resigned and pled guilty to theft of government property. He was
                         sentenced to 2 years probation and ordered to pay restitution.

                       • An investigation disclosed that an individual was using a stolen fleet card
                         that had been assigned to a vehicle already turned in to the Fleet
                         Management Center in Franconia, VA. The investigation revealed the
                         card continued to accrue frequent charges of multiple, same day
                         purchases of gas, many of which exceeded the tank capacity of the
                         assigned vehicle. The individual pled guilty to theft of government
                         property and was sentenced to 1 month in prison and 2 years probation.

                       Telecommunications Fraud
                       The OIG continues to be a principal participant in the New York Electronic
                       Crimes Task Force (NYECTF), which has been investigating
                       telecommunications fraud primarily involving Federal facilities within the New
                       York metropolitan area. GSA is the principal provider of telecommunications
                       services for these facilities. NYECTF members include the U.S. Secret
                       Service, Department of Defense, Department of Justice, New York City
                       Police, and telecommunications industry representatives.




                                                                         Office of Inspector General 23
                              Promoting and Protecting Integrity



                                       A fraud investigation was initiated when Money Gram International disclosed
                                       that there was an organized nationwide ring defrauding businesses that
                                       utilize Money Gram money orders as a means of transferring funds. The
                                       scheme uncovered by this investigation disclosed that individuals were
                                       placing telephone calls to Money Gram call centers and falsely representing
                                       themselves as authorized Money Gram agents, thereby tricking the operator
                                       into transferring funds to various cashing centers in the New York City area
                                       where individuals then picked up the transferred funds.

                                       The investigation disclosed that one individual conspired with seven other
                                       individuals in a scheme to make a fraudulent request to Money Gram for a
                                       wire transfer of funds to a check-cashing center. The individual provided the
                                       seven other individuals with fraudulent proprietary information to use in
                                       making the request to Money Gram. This individual then went to the
                                       check-cashing center and obtained the cash that had been wired there by
                                       Money Gram.

                                       On March 6, 2006, the individual appeared in U.S. District Court and pled
                                       guilty to wire fraud. He is scheduled to be sentenced on September 5,
                                       2006.

                                       Significant Civil Actions
                                       Major Consulting Firms Pay a Total of $25,608,977 for Failing to Pass
                                       Along Post-Transaction Rebates
                                       In late December 2005, the Department of Justice concluded settlement
                                       agreements with four GSA contractors, Ernst & Young, International, Inc.,
                                       KPMG Consulting, Inc., Bearingpoint, and Booz Allen Hamilton Inc., who
                                       paid a total of $25,608,977 to settle separate complaints relating to
                                       overcharges on travel-related expenses. The complaints, all filed by the
                                       same relator, pursuant to the qui tam provisions of the civil False Claims Act,
                                       alleged that the contractors routinely failed to pass along to the government
                                       the post-transaction rebates that they received from travel providers such as
                                       airlines, hotels, and rental car companies, travel service providers and credit
                                       card companies. Therefore, because the companies’ contracts with
                                       government agencies (including the relevant two contracts with GSA)
                                       generally provided that only actual travel expenses could be reimbursed, the
                                       complaints alleged that the contractors repeatedly submitted false claims to
                                       the government.

                                       The government’s investigation substantively confirmed the relator’s major
       Firms pay                       allegations. Specifically, the four companies had rebate agreements with
     $25 million for                   travel providers and travel service providers from the early 1990’s onward.
                                       These agreements often provided for post-transaction rebates, as opposed
     hiding rebates.                   to up-front discounts. While up-front rebates would automatically be passed
                                       on to a contractor’s clients, post-transaction rebates were undisclosed and
                                       were not passed through to the government. In addition to the rebate



24 Semiannual Report to the Congress
Promoting and Protecting Integrity



   agreements with airlines and rental car companies, the companies had
   agreements in place with travel services providers. As part of these
   agreements, the travel services companies agreed to rebate to the GSA
   contractors all commissions earned from the provision of travel agent
   services to those contractors, as well as an additional post-transaction
   rebate based on the total amount charged by contractor personnel on their
   corporate charge cards. The four GSA contractors failed to refund or credit
   the rebates to their government customers.

   The individual settlement amounts paid by the contractors were as follows:
   Ernst & Young, International, Inc. paid $4,471,980; KPMG, LLP paid
   $2,771,333; Bearingpoint paid $15,000,000; and Booz Allen Hamilton Inc.
   paid $3,365,664.

   Staples and Corporate Express Pay a Total of $12.4 Million Dollars for
   Violating the Trade Agreements Act
   Two companies that provide office supplies to government customers
   through GSA’s Multiple Award Schedule (MAS) contracts, Staples and
   Corporate Express, have paid the government $12.4 million collectively to
   settle allegations that they violated the Trade Agreements Act in performing
   their MAS contracts. The complaints, which were brought under the qui tam
   provisions of the civil False Claims Act, alleged that each of the companies
   sold numerous office products to the government under its MAS contracts
   that were sourced from prohibited countries of origin. Under the qui tam
   provisions of the civil False Claims Act, a portion of these settlement funds
   were paid to three relators—a competitor office supply company and two
   individuals who served as executives at the company—for bringing the
   allegations to the government’s attention. The lawsuit was filed in Federal
   District Court for the District of Columbia.

   Company Pays $1,000,000 for Small Business Misrepresentation
   Insight Public Sector, Inc. agreed to pay $1,000,000 to settle its potential civil
   False Claims Act liability for an alleged misrepresentation made by a
   company it had acquired, Comark, Inc. (Comark). The government alleged
   that Comark misrepresented itself as a small business to GSA contracting
   officials in the course of responding to a solicitation in 1995. The
   government further alleged that the misrepresentation gave Comark an
   unfair advantage over genuine small businesses on the GSA Multiple Award
   Schedule.

   Tanadgusix Corporation and Marisco, LTD Pay $450,000 in Damages
   and Return a Floating Dry-dock to the Government
   In a settlement signed February 1, 2006, Tanadgusix Corporation (TDX) and
   Marisco, LTD (Marisco) agreed to pay $450,000 in civil False Claims Act
   damages, and return a floating dry-dock that TDX had obtained through
   GSA’s surplus property program. TDX is a Native American development
   corporation based in Anchorage, Alaska. Marisco is a marine repair


                                                        Office of Inspector General 25
                              Promoting and Protecting Integrity



                                       business located in Kapolei, Hawaii. The relator brought this action on
                                       behalf of the United States pursuant to the qui tam provisions of the civil
                                       False Claims Act. It alleged that TDX entered into an agreement with
                                       Marisco that violated the terms under which TDX had obtained the dry-dock.

                                       In 2001, TDX took possession of the former Navy floating dry-dock, the
                                       Ex-Competent, leased it to Marisco and had it moved to Marisco’s location in
                                       Hawaii. Marisco placed the dry dock into service as part of its marine repair
                                       business. The relator alleged, and the government agreed, that TDX’s lease
                                       of the dry-dock to Marisco violated the terms under which TDX had obtained
                                       the dry-dock from the surplus property program.

                                       As part of the settlement agreement, TDX and Marisco returned the dry-dock
                                       to the government and paid the government $450,000 in False Claims Act
                                       damages. In addition, the companies agreed to pay the government
                                       20 percent of any monies that Congress might appropriate to TDX pursuant
                                       to Section 4401(e) of the Safe, Accountable, Flexible, Efficient Transportation
                                       Equity Act: A Legacy for Users, Pub. L. No. 109-59, 119 Stat. 1144 (Aug. 10,
                                       2005).

                                       Raised Floor Installation Ordered to Pay $106,000
                                       An investigation was initiated when it was reported that a GSA contractor
                                       was committing fraud on a flooring contract. Raised Floor Installation, Inc.
                                       (RFII) was awarded a contract for replacement of the flooring at a Federal
                                       office building in New York. The GSA contract stipulated that RFII was to
                                       use Tate 2500 Concore Flooring for the entire project. The investigation
                                       revealed that the flooring did not meet the contract specifications because
                                       Tate products were only installed in some areas of the floor. The
                                       investigation also found that the contractor submitted three false claims to
                                       GSA for payment totaling $60,000. On January 13, 2006, the U.S. District
                                       Court, Southern District of New York entered a civil judgment against RFII
                                       ordering it to pay the government $106,000 in connection with the civil fraud
                                       complaint brought by the U.S. Attorney’s Office.

                                       Guard Services Provider Pays $80,000 to Settle Alleged Overcharging
                                       Holiday International Security (Holiday), now USProtect, a company that
                                       provides guard services under a PBS contract, agreed to pay $80,000 to
    Guard services                     resolve its potential civil False Claims Act liability. The government alleged
     provider pays                     that the company, which contracted to guard Federal detainees at various
    $80,000 to settle                  hospital locations in California, billed the government for one guard per
                                       detainee but only assigned one guard for every two detainees. In addition,
        alleged                        the government alleged that Holiday submitted numerous hourly work
     overcharging.                     reports with forged signatures of employees who were never on shift in order
                                       to get the fraudulent claims paid. The settlement represented approximately
                                       double the damages to the government.




26 Semiannual Report to the Congress
Promoting and Protecting Integrity



   Integrity Awareness
   The OIG presents Integrity Awareness Briefings nationwide to educate GSA
   employees on their responsibilities for the prevention of fraud and abuse and
   to reinforce employees’ roles in helping to ensure the integrity of Agency
   operations.

   This period, we presented 22 briefings attended by 396 regional employees.
   These briefings explain the statutory mission of the OIG and the methods
   available for reporting suspected instances of wrongdoing. In addition,
   through case studies, the briefings make GSA employees aware of actual
   instances of fraud in GSA and other Federal agencies and thus help to
   prevent their recurrence. GSA employees are the first line of defense
   against fraud, abuse, and mismanagement. They are a valuable source of
   successful investigative information.

   Hotline
   The OIG Hotline provides an avenue for employees and other concerned
   citizens to report suspected wrongdoing. Hotline posters located in
   GSA-controlled buildings encourage employees to use the Hotline. We also
   use our FraudNet Hotline platform to allow Internet reporting of suspected
   wrongdoing. During this reporting period, we received 991 Hotline contacts.
   Of these contacts, 205 Hotline cases were initiated. In 80 of these cases,
   referrals were made to GSA program officials for review and action as
   appropriate, 38 cases were referred to other Federal agencies for follow-up,
   49 were referred for OIG criminal/civil investigations or audits, and 38 did not
   warrant further review.

   Computer Systems Security Breached
   The Information Technology Audit Office assisted the Office of Investigations
   to successfully investigate an OIG Hotline complaint reported by a GSA
   computer system user of security weaknesses within two GSA systems
   accessed via the Internet. The audit staff utilized their computer lab to
   provide investigators with forensic data including an analysis of systems
   logs, which confirmed two inappropriate disclosures of information,
   confirming security weaknesses that needed to be addressed by the Agency.
   Analytical results were reported to GSA’s Senior Agency Information Security
   Officer who activated a computer security incident response team to correct
   the vulnerabilities. The security incidents were also reported by the Agency
   to the United States Computer Emergency Readiness Team (US-CERT)
   within the Department of Homeland Security.




                                                      Office of Inspector General 27
                              Promoting and Protecting Integrity



                                       Significant Preaward Reviews and Other Audits
                                       The OIG’s preaward review program provides information to contracting
                                       officers for use in negotiating contracts. The pre-decisional, advisory nature
                                       of preaward reviews distinguishes them from other audits. This program
                                       provides vital and current information to contracting officers, enabling them
                                       to significantly improve the government’s negotiating position and to realize
                                       millions of dollars in savings on negotiated contracts.

                                       This period, the OIG performed preaward reviews of 48 contracts with an
                                       estimated value of $3.8 billion. We recommended that more than
      $240 million                     $240 million of funds be put to better use.
    recommended in                     Five of the more significant Multiple Award Schedule contracts we reviewed
    cost avoidances.                   had projected governmentwide sales totaling $1.6 billion. The review
                                       findings recommended that $163 million in funds be put to better use. The
                                       reviews disclosed that these vendors offered prices and labor rates to GSA
                                       that were not as favorable as the prices and rates other customers receive
                                       from these vendors. For example, contrary to one company’s disclosure, the
                                       offer to GSA is not reflective of the company’s most favored customer
                                       pricing. Deficiencies in billing and sales reporting systems also resulted in
                                       underreported sales and unpaid Industrial Funding Fees. Another
                                       company’s methodology used to calculate its base labor rates was
                                       incomplete.

                                       There are now more than 10,000 vendors doing over $30 billion in business
                                       annually under GSA’s rapidly expanding procurement programs. Past
                                       history has shown that for every dollar invested in preaward contract
                                       reviews, at least $10 in lower prices or more favorable terms and conditions
                                       are attained for the benefit of the government and the taxpayer. The Office
                                       of Management and Budget (OMB) has long recognized the increasing
                                       dollar value of GSA’s contract activities and our limited resources in
                                       providing commensurate audit coverage. Through the Federal Supply
                                       Service (FSS) and Federal Technology Service (FTS) contract program
                                       revenues, OMB officials have provided us additional financial support to
                                       increase our work in this area. These funds enabled us to hire additional
                                       staff to support expanded contract review activities including, primarily, an
                                       increase in preaward contract reviews, as well as more contract
                                       performance reviews that evaluate contractors’ compliance with pricing,
                                       billing, and terms of their contracts, and periodic program evaluations to
                                       assess the efficiency, economy, and effectiveness of contracting activities.
                                       We now allocate about 40 percent of our resources to contract reviews.

                                       During this six-month period, management decisions were made on 39 of
                                       the preaward reports issued during the last year. Those reports
                                       recommended that over $752 million of funds be put to better use.
                                       Management agreed with more than 90 percent of these recommended
                                       savings—an amount in excess of $677 million.


28 Semiannual Report to the Congress
Promoting and Protecting Integrity



   Federal Managers’ Financial Integrity Act Review
   The Federal Managers’ Financial Integrity Act (FMFIA), Section 2, requires
   GSA management to provide assurance to the President and the Congress
   that Agency resources are protected from fraud, waste, mismanagement,
   and misappropriation. FMFIA, Section 4 relates to the CFO’s disclosure of
   nonconformances with Federal financial management system policies and
   standards.

   GSA’s Management Control and Oversight Council uses assurance
   statement questionnaires submitted by Regional Administrators and Heads
   of Services and Staff Offices as a basis for developing the Administrator’s
   assurance statement.

   Each year, we review the Agency’s FMFIA process to determine whether
   management adequately disclosed all known control weaknesses and
   nonconformances in the Agency’s programs, operations, and systems of
   management reporting of known significant weaknesses and deficiencies. In
   reviewing the FMFIA assurance statement questionnaires submitted by
   management for FY 2005, we noted two weaknesses reported for budgetary
   reporting processes and contracting practices. In addition, our review of
   audits performed by the OIG and other external organizations identified
   weaknesses in the areas of Construction in Progress and reconciliations of
   intragovernmental balances.

   Our limited audit also included a review of the status of prior year
   weaknesses and nonconformances. Our review of these prior year issues
   found weaknesses in the management of the development and secure
   operations of automated information systems.

   Financial Statement Audit and Related Reviews
   With the passage of the Chief Financial Officer’s Act of 1990, Congress and
   OMB have established a framework for financial audits and reviews
   designed to enhance the Federal Government’s financial management and
   reporting practices. Summarized below are the results of our financial and
   financial-related reviews.

   As in past years, GSA’s Financial Statement Audit was performed by an
   independent public accounting firm, with oversight, support work, and
   guidance provided by the OIG. The firm issued unqualified opinions on the
   Agency’s Fiscal Years 2005 and 2004 balance sheets and related
   statements of net cost and changes in net position. The firm also issued an
   unqualified opinion on GSA’s Fiscal Years 2005 and 2004 statement of
   budgetary resources for the Federal Buildings Fund. However, due to a
   material weakness concerning inadequate controls over monitoring,
   accounting, and reporting of budgetary transactions, the firm was unable to
   render an opinion on the statements of budgetary resources and financing
   for the Information Technology Fund, General Supply Fund, and GSA
   consolidated funds for Fiscal Years 2005 and 2004.

                                                    Office of Inspector General 29
                              Promoting and Protecting Integrity



                                       In addition to the material weakness noted above, the firm also identified five
                                       reportable conditions concerning the Agency’s need to:

                                       • Improve development, implementation, and change controls over GSA’s
                                         financial applications.

                                       • Strengthen application security controls.

                                       • Improve controls over transferring substantially complete construction in
                                         process projects within the Public Buildings Service.

                                       • Improve contracting practices in the Federal Technology Service’s Office
                                         of Information Technology Solutions.

                                       • Improve reconciliation of intragovernmental balances.

                                       The firm also reported two instances of noncompliance with laws and
                                       regulations. The first instance involved three matters, identified by the OIG,
                                       which may constitute breaches of the Anti-Deficiency Act or the Purpose
                                       Statute. In the second instance, the firm reported that GSA’s financial
                                       management systems did not substantially comply with the Federal financial
                                       management systems requirements of the Federal Financial Management
                                       Improvement Act (FFMIA). This violation of the FFMIA was the result of the
                                       material weakness regarding inadequate controls over monitoring,
                                       accounting, and reporting of GSA’s budgetary transactions.

                                       Testing Controls Over Performance Measures
                                       The OIG conducted the portion of GSA's Fiscal Year 2005 Financial
                                       Statement Audit related to internal controls over performance measures.
                                       Our report noted that the internal controls designed by the Office of the Chief
                                       Financial Officer (OCFO) over GSA’s performance measure data are
                                       operating effectively. Specifically, we found that in accordance with GSA
                                       Policy, the OCFO performed and documented the required review of Agency
                                       performance measure data, and that the conclusions therein were
                                       adequately supported. We also noted that a consultant hired by the OCFO
                                       completed a review of the process used to verify and validate the data
                                       supporting the Agency’s performance measures during Fiscal Year 2005.
                                       The resulting report identified recommendations for improvement, which
                                       were taken into consideration by the OCFO and implemented accordingly,
                                       representing an additional step taken to improve the adequacy of the internal
                                       controls over GSA’s reported performance measures.

                                       Agreed-Upon Procedures Reviews
                                       In support of GSA’s Financial Statement Audit, we performed agreed-upon
                                       procedures reviews over GSA’s Fiscal Year 2005 environmental liabilities
                                       and legal loss contingencies.




30 Semiannual Report to the Congress
                  Promoting and Protecting Integrity



                      We reconciled the Office of General Counsel’s environmental liability letter
                      and supporting spreadsheets to PBS’ summary schedules based on
                      documents prepared by regional offices. We also noted that some
                      Environmental Liability Questionnaires were not updated on a regular basis
                      to ensure that inflation or technological changes have not significantly
                      increased costs; however, we were informed that guidance would be
                      updated in FY 2006 to ensure that cost estimates are regularly reviewed.

                      We tested 100 percent of claims for $10 million or more to determine the
                      Agency’s planned response to the litigation and, if a possible loss was
                      perceived, whether Office of General Counsel personnel could provide
                      explanations of the estimates.

                      We provided the relevant information on the procedures we performed to the
                      independent public accounting firm on November 8, 2005, and
                      November 14, 2005 respectively.

                      Hurricane Katrina
                      On August 29, 2005, Hurricane Katrina made landfall in New Orleans,
                      impacting over 90,000 square miles before it was finished, devastating much
                      of the Gulf Coast area in Louisiana, Mississippi, and Alabama. Congress
                      acted quickly, providing $62.3 billion for recovery and relief efforts, but the
                      ultimate cost could exceed $200 billion. Federal agencies expedited
 GSA OIG auditors     contracting methods as permitted under the Federal Acquisition Regulation,
  and agents join     and provided stewardship plans for oversight of the agencies’ actions. The
hurricane oversight   Federal Inspector General community, coordinated through the President’s
                      Council on Integrity and Efficiency (PCIE) Homeland Security Working
    task forces.      Group, initiated an aggressive review of agencies’ response efforts. The
                      Department of Justice established a fraud task force that includes Federal,
                      state, and local law enforcement agents. These actions have focused on
                      ensuring relief funds were spent wisely; improving agency response to
                      disasters; and identifying fraud, waste, and abuse early in the process.

                      GSA’s role in emergencies, such as Hurricane Katrina, is twofold. First,
                      under the 2004 National Response Plan, which is the Federal Government’s
                      unified approach to responding to natural or man-made incidents, GSA
                      serves a central role in procuring equipment and services used by the
                      Federal Emergency Management Agency (FEMA). GSA has awarded
                      contracts in excess of $900 million on FEMA’s behalf. In these
                      procurements, FEMA utilized GSA procurement professionals to award
                      contracts for which FEMA has identified the procurement requirements and
                      is billed directly. GSA also has responsibilities as the landlord to many
                      Federal agencies in the affected area to locate or repair space so that the
                      agencies may continue their missions.

                      As an active member of the Homeland Security Working Group, we are
                      reviewing GSA’s disaster relief and recovery response efforts. Our audit



                                                                         Office of Inspector General 31
                              Promoting and Protecting Integrity



                                       objective is to review GSA’s general organization and management for the
                                       disaster response, its role as landlord for 84 affected facilities, and GSA’s
                                       contracting support provided to FEMA, including examining procurements for
                                       price reasonableness, the level of competition used for the award, and
                                       management controls related to the procurement award. In accordance with
                                       guidelines from the PCIE Katrina Audit Task Force, we are reviewing
                                       contract actions over $500,000 that GSA awarded for FEMA, currently
                                       numbering 247, valued at more than $647 million.

                                       To date, we have provided Agency management with preliminary
                                       observations regarding standard operating procedures for GSA emergency
                                       support provided to FEMA, and contractor responsibility determinations on
                                       emergency procurements, through two interim audit memoranda. Upon
                                       completion of audit fieldwork, we will issue a comprehensive report.

                                       In addition to our audit effort, two OIG Special Agents participate on the
                                       Department of Justice Hurricane Katrina Fraud Task Force, conducting
                                       criminal investigations related to GSA’s hurricane relief efforts which are
                                       coordinated with respective Federal, state, and local law enforcement
                                       agencies.

                                       The OIG has committed over 6 staff years of effort to the post-Katrina audit
                                       and investigative reviews. To do this, the OIG has deferred other scheduled
                                       work in our portfolio. The importance of the interagency effort to deal with
                                       the aftermath of the hurricane and response efforts has led us to make this
                                       one of our highest priorities.




32 Semiannual Report to the Congress
                  Governmentwide Policy Activities



                     We regularly provide advice and assistance on governmentwide policy
                     matters to the Agency, as well as to other Federal agencies and to
                     committees of Congress. In addition, as required by the Inspector General
                     Act of 1978, we review existing and proposed legislation and regulations to
                     determine their effect on the economy and efficiency of the Agency’s
                     programs and operations and on the prevention and detection of fraud and
                     mismanagement. Because of the central management role of the Agency in
                     shaping governmentwide policies and programs, most of the legislation and
                     regulations reviewed invariably impact governmentwide issues in areas such
                     as procurement, property management, travel, and government
                     management and information technology systems.

Interagency          This period, we provided advice and assistance to the Office of Management
                     and Budget (OMB) on various procurement policy issues, particularly in the
Committees and       area of time-and-materials and labor-hours contracts.
Working Groups
                     In addition, we participated on a number of interagency committees and
                     working groups that deal with cross-cutting and governmentwide issues:

                     • The Acting Deputy Inspector General represents all civilian government
                       agencies on the Cost Accounting Standards Board, an independent board
                       within OMB’s Office of Federal Procurement Policy, which promulgates,
                       amends, and revises Cost Accounting Standards designed to achieve
                       uniformity and consistency in cost accounting practices by individual
                       government contractors.

                     • The Acting Assistant Inspector General for Auditing co-chairs the IT
                       Committee under the PCIE Federal Audit Executive Council. This
                       Committee is responsible for leading discussion and reaching consensus
                       among all of the OIGs regarding a myriad of IT issues including proposed
                       legislation and regulations, OMB questions and reporting requirements,
                       and IT audit approaches and best practices. OIG audit representatives
                       participate in the Federal Audit Executive Council’s IT Committee to
                       develop approaches and techniques for conducting IT security audits
                       under the Federal Information Security Management Act (FISMA). Audit
                       representatives also participate in the PCIE IT Roundtable to discuss
                       various methodologies and best practices for conducting IT audits.

                     • Our TeamMate Technical Support Group participates in the TeamMate
                       Federal Users Group and the PricewaterhouseCoopers TeamMate Users
                       Group to discuss concerns and new challenges facing TeamMate users.
                       TeamMate is an automated audit workpaper management system
                       designed to make the audit process more efficient.

Legislation and      During this reporting period, the OIG reviewed 139 legislative matters and
                     10 proposed regulations. The OIG specifically commented on the following
Regulations          legislative and other items:



                                                                     Office of Inspector General 33
                               Governmentwide Policy Activities



                                       • Revised Draft Bill Concerning a Federal Real Property Disposal Pilot
                                         Program. We commented on a draft bill that would have established a
                                         pilot program to authorize expedited disposals of certain underutilized
                                         Federal real property through cash sales. We noted that we generally
                                         support the principle of providing Federal agencies with expanded
                                         flexibility to manage real property. However, we noted our view that the
                                         bill’s proposal to allow agencies to retain only 20 percent of the proceeds
                                         of such sales may not be a sufficient incentive to cause those agencies to
                                         seek expedited disposal under the pilot program. We suggested that
                                         consideration be given to providing a more substantial or effective
                                         incentive.

                                       • Trade Agreements Act Provision in Draft DoD Authorization Bill for
                                         FY 2007. We provided comments on a provision in the FY 2007 Draft
                                         DoD Authorization bill which would amend the Trade Agreements Act of
                                         1979 (TAA) in a manner that would establish a governmentwide
                                         exemption for certain products. Specifically, the provision would allow
                                         Federal agencies to purchase products from non-designated countries—
                                         without a Presidential waiver—if there was a determination made that
                                         quantities of the product from TAA designated countries were insufficient,
                                         and if such TAA-designated countries collectively produce less than five
                                         percent of the world market of the product. We noted our view that the
                                         U.S. Trade Representative should be given an opportunity to comment on
                                         the proposal. We also noted our view that the provisions seemed vague
                                         or possibly unworkable in that the provision did not explain which agency
                                         would make the insufficiency determination. We also noted our concern
                                         that Federal agency contracting officers may not have the expertise to
                                         make such a determination.

                                       • Draft GSA Acquisition Letter Regarding Contract Support Items. We
                                         provided GSA with comments on a draft of an Acquisition Letter to
                                         address the treatment of contract support items (CSIs), also known as
                                         Other Direct Costs, under Multiple Award Schedule (MAS) contracts for
                                         services. We noted our continued objection to GSA’s direction to
                                         contracting officers to use Alternate II of the “Payments Under Time and
                                         Materials” clause. This clause is only intended to be used in labor-hour
                                         contracts, not in MAS contracts where the purchase and reimbursement
                                         of CSIs is clearly anticipated. We also noted our concerns that GSA
                                         contracting officers may have difficulty anticipating most of the CSIs
                                         required in connection with a particular vendor’s service, and we noted
                                         that ordering agencies should still be free to negotiate appropriate CSIs at
                                         the task order level. In a final point, we conveyed our view that the
                                         Acquisition Letter’s prohibition on marking up CSIs with overhead may not
                                         be consistent with a vendor’s accounting system or general principles of
                                         allocability.




34 Semiannual Report to the Congress
Professional Assistance Services



   Government Auditing Standards prohibit Federal audit organizations from
   performing certain types of management consulting projects because they
   may impair the independence of the auditors when performing subsequent
   audit work in the same area. To maintain our independence when working
   closely with GSA management, we carefully assess our services to ensure
   compliance with the standards. As allowed under the standards, we are
   continuing our participation on Agency improvement task forces, committees,
   and working groups in an observer or advisory capacity.

   Task Forces, Committees, and Working Groups. The OIG provides
   advice and counsel to GSA while monitoring ongoing Agency initiatives. Our
   representatives advise management at the earliest possible opportunity of
   potential problems, help ensure that appropriate management controls are
   provided when installing new or modifying existing Agency systems, and
   offer possible solutions when addressing complex financial and operational
   issues.

   Our direct participation with the Agency on task forces, committees, and
   working groups allows us to contribute our expertise and advice, while
   improving our own familiarity with the Agency’s rapidly changing systems.
   We nevertheless maintain our ability to independently audit and review
   programs. Our participation on the task forces is typically as a
   non-voting advisory member. We maintain a strict policy of excluding staff
   members who have served on developmental task forces from subsequent
   audits of the same subject areas.

   Some areas in which we have been involved this period include:

   • Single Audit Act Activities. The Single Audit Act established uniform
     audit requirements for state and local governments receiving Federal
     awards. The non-Federal entities that receive Federal awards under
     more than one Federal program are required to undergo a single audit to
     prevent duplicate audits and inefficiencies. Each Federal agency monitors
     the non-Federal entity’s use of awards provided by the Agency, and
     assesses the quality of the audits conducted relative to its program. The
     OIG monitors these activities primarily as they relate to the personal
     property disposal program.

   • The Information Technology (IT) Council. The Council monitors
     policies and programs to ensure IT consistency throughout the Agency. It
     is comprised of the Chief Information Officers of the various GSA Services
     and Staff Offices. Representatives of our office participate in meetings at
     the request of the Agency on such matters as systems controls,
     architecture, security, or new legislative requirements.

   • Multiple Award Schedule Working Group. The Multiple Award
     Schedule (MAS) Working Group was established as a result of an OIG
     report released in August 2001 relating to MAS contracting pricing


                                                    Office of Inspector General 35
                               Professional Assistance Services



                                       practices. The MAS Working Group is primarily comprised of members of
                                       the Federal Supply Service (FSS) and the OIG, with representation also
                                       from the Office of General Counsel and the Office of the Chief Acquisition
                                       Officer. The Working Group meets regularly and serves as a standing
                                       forum for discussion and resolution of issues or concerns having to do
                                       with MAS contracting. It has served as an effective institutionalized
                                       communications channel for both broad policy issues and discrete issues
                                       having to do with particular contracts or reviews.

                                       The Working Group has had several areas of focus, including preaward
                                       contract reviews and MAS negotiations issues. The Working Group has
                                       developed guidance to MAS contracting officers (COs) regarding the
                                       performance and use of preaward MAS contract reviews. Further, the
                                       Working Group has reinvigorated the process by which FSS and the OIG
                                       collaboratively select and commence preaward reviews of vendors, and
                                       has built into this process specific mechanisms for COs to request
                                       reviews of particular vendors. The Working Group has also focused on
                                       issuing guidance to COs regarding negotiations objectives and discrete
                                       negotiations issues for MAS contract awards. The Working Group also
                                       provided some input to FSS in its efforts to upgrade or enhance pricing
                                       performance measures on MAS contracts.




36 Semiannual Report to the Congress
               Statistical Summary of OIG Accomplishments



                             Audit Reports Issued
                             The OIG issued 85 audit reports during this reporting period. The 85 reports
                             contained financial recommendations totaling $248,027,395, including
                             $240,177,561 in recommendations that funds be put to better use and
                             $7,849,834 in questioned costs. Due to GSA’s mission of negotiating
                             contracts for governmentwide supplies and services, most of the savings
                             from recommendations that funds be put to better use would be applicable
                             to other Federal agencies.

                             Management Decisions on Audit Reports
                             Table 1 summarizes the status of the universe of audits requiring
                             management decisions during this period, as well as the status of those
                             audits as of March 31, 2006. There were no reports more than
                             six months old awaiting management decisions as of March 31, 2006.
                             Table 1 does not include two reports issued to other agencies this period.
                             Table 1 also does not include five reports excluded from the management
                             decision process because they pertain to ongoing investigations.


                 Table 1. Management Decisions on OIG Audits


                                                                  Reports with        Total
                                                  No. of            Financial       Financial
                                                 Reports        Recommendations Recommendations

For which no management decision
had been made as of 10/1/05
  Less than six months old                         40                   30               $616,377,746
  Six or more months old                            0                    0                          0
Reports issued this period                         83                   37                248,027,395
TOTAL                                             123                   67               $864,405,141
For which a management decision
was made during the reporting period
  Issued prior periods                              40                  30               $616,377,746
  Issued current period                             44                  16                136,477,505
TOTAL                                               84                  46               $752,855,251
For which no management decision
had been made as of 3/31/06
  Less than six months old                          39                  21               $111,549,890
  Six or more months old                             0                   0                          0
TOTAL                                               39                  21               $111,549,890




                                                                              Office of Inspector General 37
                      Statistical Summary of OIG Accomplishments



                                       Management Decisions on Audit Reports with
                                       Financial Recommendations
                                       Tables 2 and 3 present the audits identified in Table 1 as containing financial
                                       recommendations by category (funds to be put to better use or questioned
                                       costs).




                   Table 2. Management Decisions on OIG Audits with
                   Recommendations that Funds be Put to Better Use

                                                                  No. of                       Financial
                                                                 Reports                   Recommendations

       For which no management decision had
       been made as of 10/1/05
         Less than six months old                                   27                    $ 616,183,664
         Six or more months old                                      0                                0
       Reports issued this period                                   31                      240,177,561
       TOTAL                                                        58                    $ 856,361,225

       For which a management decision was
       made during the reporting period
       TOTAL                                                        39                     $752,505,649*

       For which no management decision had
       been made as of 3/31/06
         Less than six months old                                    19                    $ 103,855,576
         Six or more months old                                       0                                0
       TOTAL                                                         19                    $ 103,855,576

       *Management agreed with $677,617,894 in management decisions.




38 Semiannual Report to the Congress
          Statistical Summary of OIG Accomplishments




            Table 3. Management Decisions on OIG Audits
                       with Questioned Costs

                                        No. of            Questioned
                                       Reports              Costs

For which no management decision
had been made as of 10/1/05
  Less than six months old                 3            $ 194,082
  Six or more months old                   0                     0
Reports issued this period                 6             7,849,834
TOTAL                                      9            $8,043,916

For which a management decision
was made during the reporting period
TOTAL                                      7            $ 349,602

For which no management decision
had been made as of 3/31/06
  Less than six months old                 2            $7,694,314
  Six or more months old                   0                     0
TOTAL                                      2            $7,694,314




                                                    Office of Inspector General 39
                      Statistical Summary of OIG Accomplishments



                                       Investigative Workload
                                       The OIG opened 118 investigative cases and closed 87 cases during this
                                       period. In addition, the OIG received and evaluated 37 complaints and
                                       allegations from sources other than the Hotline that involved GSA
                                       employees and programs. Based upon our analyses of these complaints
                                       and allegations, OIG investigations were not warranted.

                                       Referrals
                                       The OIG makes criminal referrals to the Department of Justice or other
                                       authorities for prosecutive consideration and civil referrals to the Civil
                                       Division of the Department of Justice or U.S. Attorneys for litigative
                                       consideration. The OIG also makes administrative referrals to GSA officials
                                       on certain cases disclosing wrongdoing on the part of GSA employees,
                                       contractors, or private individuals doing business with the government.



                                Table 4. Summary of OIG Referrals

           Type of Referral                              Cases                               Subjects
           Criminal                                        61                                   136
           Civil                                            9                                    36
           Administrative                                  66                                    200
           TOTAL                                          136                                   372


                                       In addition, the OIG made 21 referrals to GSA officials for information
                                       purposes only.

                                       Actions on OIG Referrals
                                       Based on these and prior referrals, 39 cases (89 subjects) were accepted
                                       for criminal prosecution and 7 cases (35 subjects) were accepted for civil
                                       litigation. Criminal cases originating from OIG referrals resulted in
                                       40 indictments/informations and 63 successful prosecutions. OIG civil
                                       referrals resulted in 8 case settlements. Based on OIG administrative
                                       referrals, management debarred 17 contractors/individuals, suspended
                                       20 contractors/individuals, and took 7 personnel actions against employees.




40 Semiannual Report to the Congress
         Statistical Summary of OIG Accomplishments



                         Monetary Results
                         Table 5 presents the amounts of fines, penalties, settlements, judgments,
                         and restitutions payable to the U.S. Government as a result of criminal and
                         civil actions arising from OIG referrals.


                Table 5. Criminal and Civil Recoveries
                                             Criminal                         Civil

Fines and Penalties                         $ 329,200                 $           —

Settlements and Judgments                                                 40,019,654

Restitutions                                 2,138,822                            —

TOTAL                                       $2,468,022                $40,019,654


                         Table 6 presents the amount of administrative recoveries, recovered
                         property, and savings as a result of investigative activities.


                        Table 6. Other Monetary Results
Administrative Recoveries                   $1,684,886

Recovered Property                           2,504,089

Investigative Savings                                —

TOTAL                                       $4,188,975




                                                                            Office of Inspector General 41
APPENDICES
                     Appendix I–Significant Audits from Prior Reports




Under the Agency audit management decision process,           status records. It is scheduled for completion on
the GSA Office of the Chief Financial Officer, Office of      November 15, 2006.
the Controller, is responsible for tracking the
implementation of audit recommendations after a               Contractor Assessment Initiative
management decision has been reached. That office             Period First Reported: April 1, 2005, to September 30, 2005
furnished the following status information.
                                                              The review focused on the Administrative Report Card
Twelve audits highlighted in prior reports to the             which was created to assist contracting officers in
Congress have not yet been fully implemented; all are         making decisions about exercising contract options and
being implemented in accordance with currently                awarding additional contracts. The report contained six
established milestones.                                       recommendations; one has been implemented.

Repair and Alterations Program                                The remaining recommendations involve ensuring that
Period First Reported: April 1, 2005, to September 30, 2005   all significant contractual areas are included on the
                                                              report card, integrating a rating and weighting system,
The review centered on whether GSA has an effective           and providing guidance on formulating the report card
strategy to repair and modernize federally-owned              and follow-up procedures on contractor deficiencies.
buildings. The report contained four recommendations;         They are scheduled for completion between May 15,
implementation is not yet complete.                           2006 and October 15, 2006.
The recommendations involve a comprehensive plan              GSA Advantage!
addressing repair and modernization requirements of           Period First Reported: April 1, 2005, to September 30, 2005
the GSA building inventory; advocating its processes
and systems to assess building conditions, identify           The review centered on specific shortfalls with GSA
building deficiencies, and schedule work items;               Advantage’s management funding and planning
completing a strategy to systematically define the            process. The report contained four recommendations;
building inventory to meet customer agency long-term          they have not been implemented.
needs; and developing a methodology to prioritize the
prospectus-level projects. They are scheduled for             The recommendations involve establishing a
completion on October 15, 2006.                               management structure with adequate authority and
                                                              responsibility, developing and implementing specific
Expanded Direct Delivery Program                              performance measures, ensuring adequate processes
Period First Reported: April 1, 2005, to September 30, 2005   are in place to minimize potential delays of vendor
The review focused on the timely processing of                product data uploads, and analyzing virtual stores to
customer orders under two blanket purchase                    ensure the benefits of these investments exceed their
agreements under the Office of Global Supply’s                development and maintenance costs. They are
Expanded Direct Delivery (EDD) Program. The report            scheduled for completion on June 15, 2006.
contained two recommendations; one has not been
implemented.                                                  Information Technology Security
                                                              Program
The remaining recommendation involves establishing            Period First Reported: April 1, 2005, to September 30, 2005
incentives for EDD contractors to fulfill their
performance metric on order fills and back orders and         The review identified areas where additional
establishing a system to address missing shipment             improvements are needed in required security controls




                                                                                             Office of Inspector General 45
                     Appendix I–Significant Audits from Prior Reports



of GSA’s IT Security Program. The report contained            Improvements Needed in
four recommendations; two have been implemented.
                                                              Management, Operational, and
The remaining recommendations involve increasing              Technical Controls for PBS’ STAR
oversight of IT security policy procedure
implementation    related  to     certification and
                                                              System
                                                              Period First Reported: October 1, 2004, to March 31, 2005
accreditation, and developing an enterprise-wide
approach to patch management and vulnerability                The review assessed how well          the STAR system is
scanning. They are scheduled for completion between           meeting requirements and the          effectiveness of the
May 15 and July 15, 2006                                      system’s security controls. The       report contained two
                                                              recommendations; they have not        been implemented.
Comprehensive Human Resources
                                                              The recommendations involve ensuring that STAR
Integrated System                                             provides necessary business line management
Period First Reported: April 1, 2005, to September 30, 2005
                                                              information and ensuring that adequate security
The review of the Comprehensive Human Resources               controls are in place. They are scheduled for
Integrated System identified user reluctance to use the       completion on May 15, 2006.
system and the availability of duplicative system
functionality provided by other GSA systems. The              Review of FedBizOpps
report contained three recommendations; they have             Period First Reported: April 1, 2004, to September 30, 2004
not been implemented.                                         The review involved an online survey of FedBizOpps
                                                              users to gather information on user satisfaction to
The recommendations involve conducting a post-                assess the effectiveness of FedBizOpps. The report
implementation review, completing an alternative              contained four recommendations; one has been
analysis to consider the costs and benefits of the            implemented.
system, and ensuring that adequate security controls
are in place to manage risks. They are scheduled for          The recommendations involve developing a process to
completion between August 15 and October 15, 2006.            solicit input from vendors on system enhancements,
                                                              evaluating enhancements to FedBizOpps based on
Emergency Procurement Action                                  vendor input, and ensuring that memoranda of
Period First Reported: October 1, 2004, to March 31, 2005     agreement are in place for FedBizOpps users. The
                                                              recommendations are scheduled for completion
The review centered on a task order for anthrax
                                                              between May 15 and September 15, 2006.
remediation services awarded to a vendor under its
FSS Multiple Award Schedule contract. The report
contained one recommendation; it has not been
                                                              Employee Awards Program
                                                              Period First Reported: April 1, 2004, to September 30, 2004
implemented.
                                                              The review evaluated management controls of the
The recommendation involves tasking a team of                 Employee Awards Program. The report contained five
program experts and procurement offices to create a           recommendations; three have been implemented.
template acquisition plan applicable to emergency
acquisitions. It is scheduled for completion on               The remaining recommendations involve the
August 15, 2006.                                              implementation of a management tool to review the




46 Semiannual Report to the Congress
                     Appendix I–Significant Audits from Prior Reports




justification and nature of awards being made by           methods, is scheduled for completion on June 15,
approving officials, and the development and issuance      2006.
of guidance covering the administrative staff to perform
data entry tasks for awards. They are scheduled for        Billing and Payment Systems
completion on May 15, 2006.                                Period First Reported: April 1, 2002, to September 30, 2002

                                                           The review examined controls over reimbursable work
Consolidation of Distribution Centers                      authorizations (RWA) billings between GSA and other
Period First Reported: October 1, 2002 to March 31, 2003
                                                           Federal agencies.       The report contained two
The review examined the operations of the FSS Stock        recommendations; one has been implemented.
Program. The report contained two recommendations;
one has been implemented.                                  The remaining recommendation involves incorporating
                                                           estimated cost data for planning workflow before and
The remaining recommendation, which requires               during the RWA process.         It is scheduled for
developing access to reliable data for all delivery        completion on October 15, 2006.




                                                                                          Office of Inspector General 47
                               Appendix II–Audit Report Register
                                                                                       Financial
                                                                                   Recommendations
                                                                               Funds to        Questioned
Date of        Audit                                                          Be Put to      (Unsupported)
Report         Number                    Title                                Better Use         Costs



(Note: Because some audits pertain to contract award or actions that have
not yet been completed, the financial recommendations related to these
reports are not listed in this Appendix.)

PBS Internal Audits
11/28/05        A050080         Survey of the Impact of the FPS/DHS
                                Transition on GSA Operations

12/01/05        A050186         Review of Public Buildings Service’s
                                Procurements for Contract Services With
                                Contract Consultants, Inc., Using Corps of
                                Engineers’ Contract W9126G-04-D-0004

03/28/06        A050040         Review of the PBS Environment Program
                                Management

03/28/06        A050040         Review of the Southeast Sunbelt Region
                                PBS Environment Program Management

03/31/06        A050063         Audit of PBS’s Tenant Improvement
                                Process

03/31/06        A050135         Audit of the Usage of Facility Management
                                Schedules, Public Buildings Service

PBS Contract Audits
10/18/05        A050190         Limited Review of Overhead Rate: Ove
                                Arup & Partners, Consultant to Smith-Miller
                                + Hawkinson Architects, LLP, Contract
                                Number GS-02P-05-DTC-0020(N)

10/24/05        A050155         Review of Termination Settlement
                                Proposal: PCL Construction Services, Inc.,
                                Contract Number GS06P02GZC0518

11/07/05        A060060         Preaward Review of Architect Engineer
                                Proposal: Richard Meier & Partners
                                Architects, LLP, Contract Number GS-09P-
                                KTC-0075

11/17/05        A050171         Review of a Claim: Botto Mechanical
                                Corporation, Subcontractor to J.A. Jones
                                Construction Group, LLC, Contract
                                Number GS-02P-98-DTC-0088(N)

48 Semiannual Report to the Congress
                      Appendix II–Audit Report Register
                                                                           Financial
                                                                       Recommendations
                                                                   Funds to        Questioned
Date of    Audit                                                  Be Put to      (Unsupported)
Report     Number              Title                              Better Use         Costs



11/30/05   A060076    Preaward Review of Architect Engineer
                      Proposal: Ove Arup & Partners California,
                      Ltd., Solicitation Number GS-09P-02-KTC-
                      0075

01/18/06   A060058    Limited Review of Payroll Burden &
                      Overhead Rates: Volmar Construction,
                      Inc., Contract Number GS-02P-04-DTC-
                      0029(N)

03/02/06   A060124    Review of Buildout Costs: DEA Lease, 111
                      Eighth Avenue, New York, New York 10011,
                      Lease Number GS-02B-23434

03/07/06   A060128    Preaward Review of Architect and
                      Engineering Contract: William H. Gordon
                      Associates, Inc., Solicitation Number GS-
                      11P-05-MKC-0045

03/09/06   A060121    Preaward Review of Architect and
                      Engineering Contract:           Cerami &
                      Associates, Inc., Solicitation Number GS-
                      11P-05-MKC-0045

03/28/06   A060122    Preaward Review of Architect and
                      Engineering Contract: Thornton-Tomasetti
                      Group, Solicitation Number GS-11P-05-
                      MKC-0045

FSS Internal Audits
11/09/05   A050005    Contract Procurement Review of the
                      Western Distribution Center Relocation
                      Project, Federal Supply Service

03/06/06   A050178    Review of the Effectiveness of the GSA
                      E-Gov Travel Program Management Office

03/08/06   A050137    Audit of GSA Fleet’s Purchase of Defense
                      Energy Support Center Fuel, Federal
                      Acquisition Service




                                                                       Office of Inspector General 49
                               Appendix II–Audit Report Register
                                                                                    Financial
                                                                                Recommendations
                                                                            Funds to        Questioned
Date of        Audit                                                       Be Put to      (Unsupported)
Report         Number                   Title                              Better Use         Costs



FSS Contract Audits
10/07/05       A050089         Preaward Review of Multiple Award
                               Schedule Contract Extension: Hill-Rom
                               Company, Inc., Contract Number GS-27F-
                               3002D

10/07/05       A050238         Report on Agreed-Upon Procedures,
                               Multiple Award Schedule Proposal: Booz
                               Allen Hamilton, Solicitation Number 2FYA-
                               WA-030003-B

10/12/05       A050105         Preaward Review of Multiple Award
                               Schedule Contract Extension:     BCOP
                               Federal, Contract Number GS-14F-0035K

10/13/05       A050134         Preaward Review of Multiple Award
                               Schedule Contract Extension: The Titan
                               Corporation, Contract Number GS-23F-
                               0180K

10/14/05       A050123         Preaward Review of Multiple Award
                               Schedule Contract Extension:  Action
                               Target Inc., Contract Number GS-02F-
                               9301C

10/14/05       A050194         Preaward Review of Multiple Award
                               Schedule Contract Extension: Thomas
                               Group, Inc., Contract Number GS-10F-
                               0341K

10/27/05       A050089         Limited Scope Review of Multiple Award                          $49,421
                               Schedule Contract: Hill-Rom Company,
                               Inc., Contract Number GS-27F-3002D

10/28/05       A050098         Preaward Review of Multiple Award
                               Schedule Contract Extension: Coastal
                               International Security,  Incorporated,
                               Contract Number GS-07F-0352K

11/03/05       A050088         Preaward Review of Multiple Award
                               Schedule Contract Extension: Caterpillar,
                               Inc., Contract Number GS-30F-1025D




50 Semiannual Report to the Congress
                     Appendix II–Audit Report Register
                                                                          Financial
                                                                      Recommendations
                                                                  Funds to        Questioned
Date of    Audit                                                 Be Put to      (Unsupported)
Report     Number             Title                              Better Use         Costs



11/10/05   A050224   Preaward Review of Multiple Award
                     Schedule Contract Extension: ManTech
                     Advanced Systems, International, Inc.,
                     Contract Number GS-23F-0122J

11/29/05   A050177   Preaward Review of Multiple Award
                     Schedule Contract Extension: Thales
                     Communications, Inc., Contract Number
                     GS-35F-0001L

11/29/05   A050225   Preaward Review of Multiple Award
                     Schedule Contract Extension: Information
                     Handling Services Inc., Contract Number
                     GS-02F-0402D

11/30/05   A050147   Limited Scope Review of Task Order                                 $50,410
                     F11623-02-F-A425     Multiple  Award
                     Schedule Contract: Herman Miller, Inc.,
                     Contract Number GS-28F-8049H

11/30/05   A050217   Preaward Review of Multiple Award
                     Schedule Contract Extension, February 1,
                     2006 Through January 31, 2011: Constella
                     Group, Inc., Contract Number GS-10F-
                     0351K

12/05/05   A050208   Limited Scope Review of Multiple Award                              $1,729
                     Schedule Contract, for the Period October
                     1, 2004 Through March 31, 2005: Onan
                     Corporation, Contract Number GS-07F-
                     9004D

12/09/05   A050169   Preaward Review of Multiple Award
                     Schedule Contract Extension: Engineering
                     and Software System Solutions, Inc.,
                     Contract Number GS-35F-0491K

12/09/05   A050205   Preaward Review of Multiple Award
                     Schedule Contract Extension: The Titan
                     Corporation, Contract Number GS-10F-
                     0075L

12/12/05   A050168   Preaward Review of Multiple Award
                     Schedule Contract Extension:      MDI
                     Security Systems, Contract Number GS-
                     07F-7840C

                                                                      Office of Inspector General 51
                               Appendix II–Audit Report Register
                                                                                    Financial
                                                                                Recommendations
                                                                            Funds to        Questioned
Date of        Audit                                                       Be Put to      (Unsupported)
Report         Number                   Title                              Better Use         Costs



12/12/05       A050243         Preaward Review of Multiple Award
                               Schedule Contract Extension: Community
                               Research Associates, Inc., Contract
                               Number GS-10F-0088L

12/15/05       A050099         Preaward Review of Multiple Award
                               Schedule Contract Extension:       The
                               Wackenhut Corporation, Contract Number
                               GS-07F-0382K

12/19/05       A050207         Preaward Review of Multiple Award
                               Schedule Contract Extension:        State
                               Industrial Products, Contract Number GS-
                               06F-0004L

12/20/05       A050214         Preaward Review of Multiple Award
                               Schedule Contract Extension: Safety-
                               Kleen Systems, Inc., Contract Number GS-
                               07F-0122L

12/28/05       A050231         Preaward Review of Multiple Award
                               Schedule Contract Extension:       West
                               Publishing Corporation, Contract Number
                               GS-02F-0405D

12/30/05       A050176         Preaward Review of Multiple Award
                               Schedule Contract Extension:      E.F.
                               Johnson Company, Contract Number GS-
                               35F-0675K

01/12/06       A060046         Preaward Review of Multiple Award
                               Schedule Contract Extension: Med-Eng
                               Systems, Inc., Contract Number GS-07F-
                               9145D

01/18/06       A050220         Preaward Review of Multiple Award
                               Schedule Contract Extension: MVM, Inc.,
                               Contract Number GS-07F-0366K

01/20/06       A050193         Preaward Review of Multiple Award
                               Schedule Contract Extension:        Sun
                               Microsystems, Inc., Contract Number GS-
                               35F-0702J




52 Semiannual Report to the Congress
                     Appendix II–Audit Report Register
                                                                         Financial
                                                                     Recommendations
                                                                 Funds to        Questioned
Date of    Audit                                                Be Put to      (Unsupported)
Report     Number             Title                             Better Use         Costs



01/26/06   A050122   Preaward Review of Multiple Award
                     Schedule Contract Extension: Fastenal
                     Company, Contract Number GS-06F-
                     0039K

01/30/06   A050241   Preaward Review of Multiple Award
                     Schedule Contract Extension: National
                     Security Research, Inc., Contract Number
                     GS-23F-0416K

02/09/06   A060001   Preaward Review of Multiple Award
                     Schedule Contract Extension: Paradigm
                     Technologies, Inc., Contract Number GS-
                     35F-0361K

02/14/06   A050079   Preaward Review of Multiple Award
                     Schedule Contract Extension: Johnson
                     Controls, Inc., Contract Number GS-07F-
                     7823C

02/21/06   A060071   Preaward Review of Multiple Award
                     Schedule Contract Extension: Riverside
                     Research Institute, Contract Number GS-
                     23F-0134L

03/02/06   A050235   Preaward      Review of Multiple Award
                     Schedule Contract Extension: Research
                     Triangle Institute, Contract Number GS-
                     10F-0097L

03/02/06   A050098   Limited Scope Review of Multiple Award                            $53,960
                     Schedule Contract Number GS-07F-0352K
                     for the Period October 1, 2003 Through
                     March 31, 2005: Coastal International
                     Security, Incorporated

03/06/06   A050257   Preaward Review of Multiple Award
                     Schedule Contract Extension: Innovative
                     Emergency Management, Inc., Contract
                     Number GS-10F-0178L

03/08/06   A050223   Preaward Review of Multiple Award
                     Schedule Contract Extension: Advantor
                     Systems Corporation, Contract Number
                     GS-07F-8785D


                                                                     Office of Inspector General 53
                               Appendix II–Audit Report Register
                                                                                    Financial
                                                                                Recommendations
                                                                            Funds to        Questioned
Date of        Audit                                                       Be Put to      (Unsupported)
Report         Number                   Title                              Better Use         Costs



03/14/06       A060003         Preaward Review of Multiple Award
                               Schedule Contract Extension:      Beta
                               Analytics International, Inc., Contract
                               Number GS-07F-0190L

03/16/06       A050233         Preaward Review of Multiple Award
                               Schedule Contract Extension:     Nortel
                               Networks, Inc., Contract Number GS-35F-
                               0140L

03/16/06       A060017         Preaward Review of Multiple Award
                               Schedule Contract Extension: American
                               Hotel Register Company, Contract Number
                               GS-07F-0294K

03/16/06       A060078         Interim Postaward Review of Multiple                         $5,222,352
                               Award Schedule Contract: State Industrial
                               Products, Contract Number GS-06F-0004L

03/17/06       A060088         Preaward Review of Multiple Award
                               Schedule Contract Extension:    L-3
                               Communications, Contract Number GS-
                               07F-9059D

03/28/06       A050255         Preaward Review of Multiple Award
                               Schedule Contract Extension: Advanced
                               Information Engineering Services, Inc.,
                               Contract Number GS-10F-0237L

FTS Internal Audits
01/23/06       A050008         Review of Connections Program Contract,
                               Federal Acquisition Service

03/01/06       A050163         Hotline Complaint - GSA Preferred

FTS Contract Audits
11/14/05       A050240         Limited Scope Postaward Review of
                               Billings for L-3 Communications, Inc.,
                               Contract Number GS-07F-5377P, Task
                               Order Number 5TP5704D005




54 Semiannual Report to the Congress
                        Appendix II–Audit Report Register
                                                                                Financial
                                                                            Recommendations
                                                                        Funds to        Questioned
Date of    Audit                                                       Be Put to      (Unsupported)
Report     Number                 Title                                Better Use         Costs



01/05/06   A050247      Preaward Review of Price Adjustment
                        Claim:   Lockheed Martin Information
                        Technology,  Task   Order    Number
                        103BK0034, Contract Number GS-35F-
                        4039G

01/09/06   A050199      Review of Contract Costs Incurred:
                        Mitretek Systems, Inc., Contract Numbers
                        GS00K95NSC0018 & GS00T00NSD0004

03/30/06   A050248      Postaward Review of Lease Costs and                               $2,471,962
                        Pricing Data:      Information Systems
                        Support, Incorporated, Contract Number
                        GS-09K-BHD-0006

Other Internal Audits
11/04/05   A050249      Limited Audit of the Fiscal Year 2005
                        Federal Managers’ Financial Integrity Act
                        Section 2 and Section 4 Assurance
                        Statements

11/08/05   A050262      Report on Internal        Controls    Over
                        Performance Measures

01/19/06   A050181      FY 2005 Office of Inspector General
                        Information Security Analysis of the Payroll
                        Accounting and Reporting System

01/19/06   A050182      FY 2005 Office of Inspector General
                        Information Security Analysis of the
                        National Electronic Accounting and
                        Reporting System

01/19/06   A050183      FY 2005 Office of Inspector General
                        Information Security Analysis of the Carlson
                        Wagonlit eTravel System

01/19/06   A050185      FY 2005 Office of Inspector General
                        Information Security Analysis of the
                        Electronic Data Systems eTravel System

01/19/06   A050184      FY 2005 Office of Inspector General
                        Information Security Analysis of the
                        Northrop Grumman Mission Systems
                        eTravel System

                                                                            Office of Inspector General 55
                               Appendix II–Audit Report Register
                                                                                       Financial
                                                                                   Recommendations
                                                                               Funds to        Questioned
Date of        Audit                                                          Be Put to      (Unsupported)
Report         Number                    Title                                Better Use         Costs



01/19/06        A050222         FY 2005 Office of Inspector General
                                Information Security Analysis of the Region
                                3 PBS LAN

01/19/06        A050229         FY 2005 Office of Inspector General
                                Information Security Analysis of the eOffer
                                System

01/19/06        A050230         FY 2005 Office of Inspector General
                                Information Security Analysis of GSA’s
                                Wide Area Backbone Network

01/19/06        A050228         FY 2005 Office of Inspector General
                                Information Security Analysis of the Sales
                                Automation System

01/19/06        A050201         FY 2005 Office of Inspector General
                                Information Security Analysis of the Region
                                9 PBS/FTS LAN

02/28/06        A050192         Audit   of     the   General   Services
                                Administration’s Fiscal Years 2005 and
                                2004 Financial Statements

02/28/06        A050192         PricewaterhouseCoopers LLP Fiscal Year
                                2005 EDP Management Recommendation
                                Letter

03/29/06        A050196         Review of FSS-19 Information Technology
                                System Contingency Planning

03/30/06        A040127         Review of the Federal Procurement Data
                                System - Next Generation (FPDS-NG)

Non-GSA Internal Audits
11/08/05        A050192         Report on Applying Agreed - Upon
                                Procedures Re: FY 2005 Environmental
                                Liabilities

11/14/05        A050192         Report on Applying Agreed - Upon
                                Procedures    Re: FY   2005 Loss
                                Contingencies




56 Semiannual Report to the Congress
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending

Pursuant to Section 810, Prompt Resolution of Audit         where final actions remain open 12 months after the
Recommendations, of the National Defense                    report issuance date. The GSA Office of the Chief
Authorization Act, (Public Law 104-106), 5 U.S.C. App.      Financial Officer, Office of the Controller, furnished the
3, § 5 note, this appendix identifies those audit reports   following information.


Audits with Management Decisions Made after February 10, 1996 for Which No Final Action Has Been Completed
The most common causes for more than 12 months delay in completing final actions are: continuing negotiations of a
contract proposal, litigative proceedings, or corrective actions that need to undertake complex and often phased-in
implementing actions before the entire matter is addressed fully.



Date of        Audit
Report         Number                                           Title



Contract Audits
03/21/97       A70632          Preaward Audit of Change Order Proposal: Expert Electric, Inc., Contract Number
                               GS-02P-94-CUC-0033(N)

06/27/97       A71811          Audit of Claim for Increased Costs, Miscellaneous Subcontractors to: Morse Diesel
                               International, Inc., Contract Number GS06P94GYC0037

07/11/97       A71803          Audit of Claim for Increased Costs: Nicholson Construction Company, Contract
                               Number GS06P94GYC0037

07/22/97       A71804          Audit of Claim for Increased Costs: Rodio/ICOS St. Louis Joint Venture,
                               Subcontractor to Morse Diesel International, Inc., Contract Number
                               GS06P94GYC0037

07/31/97       A71820          Audit of Claim for Increased Costs: Morse Diesel International, Inc., Contract
                               Number GS06P94GYC0037

08/05/97       A73617          Refund From The Committee For Purchase From People Who Are Blind Or
                               Severely Disabled, Agreement Number GS-02F-61511

02/05/98       A80609          Preaward Audit of a Delay Claim: The Woodworks Architectural Millwork, Inc.,
                               Subcontractor to Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-
                               CUC-0070(N)

05/27/98       A42146          Postaward Audit of Multiple Award Schedule Contract: Haworth, Incorporated,
                               Contract Number GS-00F-07010

06/17/98       A82441          Preaward Audit of a Claim for Increased Costs: Morse Diesel International, Inc.,
                               Contract Number GS-09P-95-KTC-0010

09/04/98       A990302         Postaward Audit of Multiple Award Schedule Contract: Westinghouse Furniture
                               Systems, Contract Number GS-00F-76574

02/05/99       A995113         Preaward Audit of Supplemental Architect and Engineering Services Contract: Van
                               Deusen & Associates, Solicitation Number GS-02P-98-PLD-0029(N)


                                                                                         Office of Inspector General 57
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit
Report         Number                                          Title


03/24/99        A995128         Preaward Audit of Cost or Pricing Data: Sachs Electric Company, Subcontractor to
                                Morse Diesel International, Inc., Contract Number GS06P95GZC0501

06/24/99        A995231         Audit of Small Business Subcontracting Plan: Rael Automatic Sprinkler Company,
                                GS-02P-95-DTC-0041(N)

07/07/99        A995249         Audit of Small Business Subcontracting Plan: L. Martone and Sons, Inc., Contract
                                Number GS-02P-95-DTC-0041(N)

10/13/99        A995262         Preaward Audit of a Claim: Metropolitan Steel Industries, Inc., Subcontractor to
                                Turner Construction Company, Contract GS-02P-95-DTC-0014(N)

10/26/99        A995278         Preaward Audit of a Claim: Midlantic Erectors, Inc., Subcontractor to Metropolitan
                                Steel Industries, Inc., Contract Number GS-02P-95-DTC-0014(N)

11/04/99        A995272         Preaward Audit of a Claim: Metropolitan Steel Industries, Inc., Subcontractor to
                                Turner Construction Company, Contract Number GS-02P-95-DTC-0014(N)

11/10/99        A995271         Preaward Audit of Architect and Engineering Services Contract: HLW International
                                LLP, Contract Number GS-02P-93-CUC-0062

03/29/00        A81830          Postaward Audit of Standardization and Control of Industrial-Quality Tools
                                Contract: Wright Tool Company, Contract Number GS-00F-14609 for the Period
                                March 8, 1991 Through February 29, 1996

03/29/00        A995122         Postaward Audit of Standardization and Control of Industrial-Quality Tools
                                Contract: Wright Tool Company, Contract Number GS-00F-14609 for the Interim
                                Period March 1, 1996 Through April 30, 1998

06/01/00        A000971         Audit of Claims for Increased Costs: Midwest Curtainwalls, Inc., The Federal
                                Triangle Project

07/19/00        A000940         Preaward Audit of a Claim: Coken Company, Inc., Subcontractor to Turner
                                Construction Company, Contract Number GS-02P-95-DTC-0014

08/24/00        A000941         Preaward Audit of a Claim: Centrifugal/Mechanical Associates, Inc., Subcontractor
                                to Turner Construction Company, Contract Number GS-02P-95-DTC-0014

10/17/00        A001024         Preaward Audit of a Claim: Canron Fabrication Corp., Second-Tier Subcontractor
                                to Turner Construction Company, Contract Number GS-02P-95-DTC-0014

10/30/00        A000942         Preaward Audit of a Claim: Centrifugal/Mechanical Associates, Inc., Subcontractor
                                to Turner Construction Company, Contract Number GS-02P-95-DTC-0014

01/10/01        A001021         Postaward Audit of Multiple Award Schedule Contract: Merant, Inc. for the Interim
                                Period March 26, 1999 Through September 30, 2000, Contract Number GS-35F-
                                0322J


58 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                   Title


01/29/01   A000909   Preaward Audit of a Claim: Turner Construction Company, Contract Number GS-
                     02P-95-DTC-0014

02/08/01   A010089   Audit of a Claim for Increased Costs: Palafox Street Associates, L.P., Federal
                     Courthouse, Pensacola, FL, Lease Number GS-04B-35055

03/20/01   A001119   Audit of Forward Pricing Rates: J.A. Jones-GMO, LLC, Contract Number GS-02P-
                     99-DTC-0006 & GS-02P-98-DTC-0088

03/29/01   A010169   Preaward Audit of Cost Plus Fixed Fee IDIQ Proposal: RS Information Systems,
                     Inc., Solicitation Number GSC-TFMGD-00-3006

04/30/01   A010127   Audit of Billings under Contract Number GS06P99GZC0315: DKW Construction,
                     Inc.

05/11/01   A010128   Preaward Audit of a Change Order Proposal: D.A.G. Floors, Inc., Subcontractor to
                     J. Kokolakis Contracting, Inc., Contract Number GS-02P-98-DTC-0056N

05/23/01   A010160   Preaward Audit of Cost or Pricing Data: John Milner Associates, Inc., Solicitation
                     Number 2PCB-CM-010174

07/31/01   A001055   Preaward Audit of a Claim: Heritage Air Systems, Inc., Subcontractor to Turner
                     Construction Company, Contract Number GS-02P-95-DTC-0014

08/14/01   A010222   Preaward Audit of Architect and Engineering Proposal: Perkins and Will, Inc.,
                     Solicitation Number GS-09P-00-KTC-0088

10/18/01   A63630    Postaward Audit of Multiple Award Schedule Contract: The Presidio Corporation,
                     Contract Number GS00K-95-AGS-6170, Contract Period April 1, 1995 through
                     March 31, 1996

10/31/01   A010265   Preaward Audit of Architect and Engineering Services Contract; HNTB District of
                     Columbia Architecture, P.C., Solicitation Number GS-11P-00-MQC-0041

12/18/01   A001123   Postaward Audit of Multiple Award Schedule Contract: Rose Talbert Paint
                     Company, Contract Number GS-10F-48584, for the Period May 9, 1988 through
                     April 30, 1991

01/11/02   A010281   Preaward Audit of a Claim for Increased Costs: Lawson Mechanical Contractors,
                     Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                     Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

02/20/02   A010138   Preaward Audit of a Claim: Heritage Air Systems, Inc., Subcontractor to Turner
                     Construction Company, Contract Number GS-02P-95-DTC-0014

04/03/02   A010263   Preaward Audit of a Claim: Island ADC, Inc., Subcontractor to Turner Construction
                     Company, Contract Number GS-02P-95-DTC-0014


                                                                            Office of Inspector General 59
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit
Report         Number                                          Title


04/11/02        A60648          Postaward Audit of Multiple Award Schedule Contract: Gaylord Bros., Contract
                                Numbers GS-00F-3918A & GS-00F-3919A

04/18/02        A010248         Preaward Audit of a Claim: LBL Skysystems, Inc., Subcontractor to Turner
                                Construction Company, Contract Number GS-02P-95-DTC-0014

04/26/02        A010262         Preaward Audit of a Claim: Coken Company, Inc., Subcontractor to Turner
                                Construction Company, Contract Number GS-02P-95-DTC-0014

04/30/02        A020101         Preaward Audit of a Claim, Additional Change Items: Turner Construction
                                Company, Contract Number GS-02P-95-DTC-0014

05/16/02        A020115         Limited Scope Audit of a Termination Claim: Patriot Group Contractors, Inc.,
                                Contract Number GS-11P-99-MAC-0006

05/17/02        A020125         Audit of Acceleration Costs: J. Kokolakis Contracting, Inc., Contract Number GS-
                                02P-98-DTC-0056N

05/17/02        A020134         Audit of Delay Costs: J. Kokolakis Contracting, Inc., Contract Number GS-02P-98-
                                DTC-0056N

05/29/02        A020109         Preaward Audit of a Claim: Schindler Elevator Corporation, Subcontractor to Turner
                                Construction Company, Contract Number GS-02P-95-DTC-0014

05/29/02        A020124         Preaward Audit of a Claim for Increased Costs: Res-Com Insulation, Inc.,
                                Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                                Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

06/12/02        A020097         Preaward Audit of a Claim for Increased Costs: Artisans G & H Fixtures, Inc.,
                                Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                                Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

06/27/02        A010239         Preaward Audit of a Claim: Turner Construction Company, Contract Number GS-
                                02P-95-DTC-0014

07/16/02        A020191         Preaward Audit of Supplemental Architect and Engineering Contract: McMullan &
                                Associates, Inc., Solicitation Number GS-11P-01-YTD-0319

07/30/02        A020086         Preaward Audit of a Claim for Increased Costs: Raymond Interior Systems North,
                                Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                                Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

08/07/02        A020173         Preaward Audit of a CQM Proposal: CCJN & Company, Architects & Planners,
                                P.C., Requisition/Procurement Request Number 2PMC-U-02-CQM

09/04/02        A020180         Preaward Audit of Architect and Engineering Services Contract: Adtek Engineering,
                                Inc., Solicitation Number GS-11P-01-YTD-0319


60 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                   Title


09/24/02   A020196   Preaward Audit of Architect and Engineering Services Contract: BEI Structural
                     Engineers, Inc., Solicitation Number GS-11P-01-YTD-0319

09/26/02   A020201   Preaward Audit of a Claim: Almar Plumbing and Heating Corp., Subcontractor to
                     Turner Construction Company, Contract Number GS-02P-95-DTC-0014

10/02/02   A020178   Preaward Audit of Multiple Award Schedule Contract Modification: Motorola, Inc.,
                     GSA Contract Number GS-35F-0004L

11/14/02   A020223   Preaward Audit of a Claim: Fine Painting Co., Inc., Subcontractor to Turner
                     Construction Company, Contract Number GS-02P-95-DTC-0014

11/20/02   A010279   Preaward Audit of a Claim for Increased Costs: Morse Diesel International, Inc.,
                     U.S. Courthouse & Federal Building, Sacramento, California, Contract Number
                     GS-09P-95-KTC-0032

01/03/03   A020242   Preaward Audit of Cost and Pricing Data: Stronghold Engineering, Inc., Solicitation
                     Number GS-09P-02-KTC-0069

01/30/03   A020248   Audit of Claim for Increased Costs: Doan/Lake Erie LLC, Contract Number GS-
                     05P-99-GBC-0012

03/14/03   A020197   Preaward Audit of a Claim: Rael Automatic Sprinkler Co., Inc., Subcontractor to
                     Turner Construction Company, Contract Number GS-02P-95-DTC-0014

03/21/03   A020133   Preaward Audit of a Claim for Increased Costs: Cosco Fire Protection, Inc.,
                     Subcontractor to Morse Diesel International, Inc., U.S. Courthouse & Federal
                     Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

03/25/03   A030140   Limited Scope Review of Termination Claim: Science Applications International
                     Corporation, Contract Number GS-35F-4461G, Task Order Number T0002SJ0159

05/02/03   A030106   Preaward Audit of a Claim for Increased Costs: George Foss Company,
                     Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                     Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

05/06/03   A030142   Preaward Audit of Construction Management Services Contract: Gilbane Building
                     Company, Solicitation Number GS-02P-02-DTC-0031N

05/19/03   A030092   Preaward Audit of a Termination Settlement Proposal: L&H Construction Co., Inc.,
                     Contract Number GS-02P-99-DTC-0013

05/29/03   A020230   Preaward Audit of a Claim for Increased Costs: C.E. Toland & Son, Subcontractor
                     to Morse Diesel International, Inc., U.S. Courthouse & Federal Building,
                     Sacramento, California, Contract Number GS-09P-95-KTC-0032

06/02/03   A030138   Audit of Claim for Increased Costs: Hunt Construction Group, Inc., Contract
                     Number GS-05P-96-GBC-0015

                                                                            Office of Inspector General 61
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit
Report         Number                                          Title


07/02/03        A030163         Preaward Audit of Multiple Award Schedule Contract Extension:         Information
                                Network Systems, Inc., Contract Number GS-35F-5002H

08/08/03        A030177         Review of Incurred Costs: Jacobs Facilities, Inc., Contract Number GS-11P-98-
                                MYD-0015

09/23/03        A030236         Preaward Audit of Architect and Engineering Services Contract: Atkinson Koven
                                Feinberg Engineers, LLP, Consultant to Perkins Eastman Architects, PC,
                                Solicitation Number GS-02P-03-DTD-0008(N)

09/29/03        A030152         Preaward Audit of a Claim: J.A. Jones Construction Group, LLC, Contract Number
                                GS-02P-99-DTC-0006

09/30/03        A030264         Preaward Audit of Cost and Pricing Data: Kelly’s Cleaning Services, Inc.,
                                Solicitation Number GS-02P-03-PIC-0028

10/09/03        A030247         Preaward Audit of Architect and Engineering Design Services Contract: Syska
                                Hennessy Group, Inc., Solicitation Number GS11P02MKC0057

10/09/03        A030248         Preaward Audit of Architect and Engineering Design Services Contract: STUDIOS
                                Architecture, Solicitation Number GS11P02MKC0057

10/09/03        A030250         Preaward Audit of Architect and Engineering Design Services Contract: Thorton-
                                Tomasetti-Cutts LLC, Solicitation Number GS11P02MKC0057

10/09/03        A030244         Preaward Audit of Architect and Engineering Design Services Contract: Shalom
                                Baranes Associates, Solicitation Number GS11P02MKC0057

10/16/03        A030225         Preaward Audit of Claim: AMEC Construction Management, Inc., Contract Number
                                GS-11P96MKC0015

11/04/03        A030261         Preaward Audit of Architect and Engineering Services Contract: Perkins Eastman
                                Architects, P.C., Solicitation Number GS-02P-03-DTD-0008(N)

12/05/03        A030241         Audit of Claim for Increased Costs: BPI Mechanical, Inc., Subcontractor to AMEC
                                Construction Management, Inc., Contract Number GS-11P-96-MKC-0015

12/17/03        A030168         Preaward Audit of Multiple Award Schedule Contract: Dynamic Systems, Inc.,
                                Solicitation Number FCIS-JB-980001B

12/17/03        A040001         Preaward Audit of Multiple Award Schedule Contract: Concord Communications,
                                Incorporated, Solicitation Number FCIS-JB-980001B

12/31/03        A030172         Preaward Audit of a Claim: Cord Contracting Co., Inc., Subcontractor to J.A. Jones
                                Construction Group, LLC, Contract Number GS-02P-99-DTC-0006(N)

12/31/03        A030215         Preaward Audit of a Claim: A&L Construction Corporation, Subcontractor to J.A.
                                Jones Construction Group, LLC, Contract Number GS-02P-99-DTC-0006(N)

62 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                    Title


01/12/04   A040067   Audit of Claim for Increased Costs: C.J. Coakley Co., Inc., Subcontractor to AMEC
                     Construction Management, Inc., Contract Number GS-11P-96-MKC-0015

01/12/04   A040098   Preaward Audit of Supplemental Architect and Engineering Services Contract:
                     Gonzalez Hasbrouck, Inc., Solicitation Number GS-05P-03-GBD-0072

01/13/04   A030265   Interim Audit of Multiple Award Schedule Contract: BearingPoint, LLC, Contract
                     GS-23F-9796H

01/15/04   A030155   Preaward Audit of a Claim: LBL Skysystems, Inc., Subcontractor to J.A. Jones
                     Construction Group, LLC, Contract Number GS-02P-99-DTC-0006(N)

01/16/04   A030234   Preaward Audit of a Claim: KSW Mechanical Services, Inc., Subcontractor to J.A.
                     Jones Construction Group, LLC, Contract Number GS-02P-99-DTC-0006(N)

01/29/04   A030223   Preaward Audit of Claim: John J. Kirlin, Inc., Subcontractor to AMEC Construction
                     Management, Inc., Contract Number GS-11P96MKC0015

02/03/04   A040119   Attestation Review of Supplemental Architect and Engineering Services Contract:
                     Julie Snow Architects, Inc., Solicitation Number GS-05P-03-GBD-0072

03/01/04   A030259   Preaward Audit of a Claim: Airflex Industrial Inc., Subcontractor to J.A. Jones
                     Construction Group, LLC, Contract Number GS-02P-99-DTC-0006(N)

03/09/04   A040162   Price Adjustments on Multiple Award Schedule Contract: Nova Solutions, Inc.,
                     Contract Number GS-29F-0173G, for the Interim Period April 1, 2004 Through
                     September 30, 2006

03/09/04   A030186   Postaward Audit of Multiple Award Schedule Contract: Nova Solutions, Inc.,
                     Contract Number GS-29F-0173G, for the Contract Period December 12, 1996
                     Through October 31, 2003

03/23/04   A030191   Preaward Audit of a Claim: Five Star Electric Corp., Subcontractor to J.A. Jones
                     Construction Group, LLC, Contract Number GS-02P-99-DTC-0006(N)

03/31/04   A030230   Preaward Attestation Review of a Claim: Singleton Electric Company, Inc., a
                     Subcontractor to AMEC Construction Management, Inc., Contract Number GS-
                     11P-96-MKC-0015

06/03/04   A040091   Audit of Claim for Increased Costs: Industrial First, Inc., Subcontractor to Hirschfeld
                     Steel Co., Inc., Contract Number GS-05P-97-GBC-0011

06/08/04   A040165   Audit of Claim for Increased Costs: Industrial First, Inc., Subcontractor to Ajay
                     Glass & Mirror Co., Inc., Contract Number GS-05P-97-GBC-0011

06/09/04   A040095   Preaward Audit of a Termination Settlement Proposal: M.L. Benjamin Enterprises,
                     Inc., Contract Number GS-02P-00P-VC-0024


                                                                               Office of Inspector General 63
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit
Report         Number                                         Title


06/15/04        A040095         Audit of Final Contract Payment: M.L. Benjamin Enterprises, Inc., Contract Number
                                GS-02P-00P-VC-0024

06/21/04        A020220         Interim Postaward Review of Multiple Award Schedule Contract: Kipper Tool
                                Company, Contract Number GS-06F-0018L

06/28/04        A040085         Limited Scope Postaward Audit of Multiple Award Schedule Contract: Onboard
                                Software, Inc., Contract Number GS-35F-0117J

06/30/04        A040116         Preaward Review of Multiple Award Schedule Contract Extension: Booz Allen
                                Hamilton Inc., Contract Number GS-35F-0306J

07/01/04        A040143         Review of Claim for Increased Costs: SimplexGrinnell, LP, GS-05P-99-GBC-0015

07/12/04        A040125         Attestation Engagement Review of A/E Services Contract: Cannon Design, Inc.,
                                Solicitation Number GS-02P-03-DTC-0003

07/15/04        A040053         Attestation Engagement Review of Supplemental Construction Management
                                Services Contract: Jacobs Facilities Inc., Solicitation Number GS-02P-03-DTD-
                                0030(N)

07/23/04        A040196         Preaward Review of Architect and Engineering Services Contract: Systech Group,
                                Inc. - Security Solicitation Number GS11P03MKC0004

07/23/04        A040197         Preaward Review of Architect and Engineering Services Contract: Systech Group,
                                Inc., Fire Protection & Life Safety, Solicitation Number GS11P03MKC0004

08/05/04        A040198         Preaward Review of Architect and Engineering Services Contract:             URS
                                Corporation, Solicitation Number GS11P03MKC0004

08/13/04        A040166         Preaward Review of Multiple Award Schedule Contract:            GovConnection,
                                Incorporated, Solicitation Number FCIS-JB-980001B

08/31/04        A030158         Preaward Audit of a Claim: ADF Steel Corp., Subcontractor to J.A. Jones
                                Construction Group, LLC, Contract Number GS-02P-99-DTC-0006(N)

09/21/04        A040236         Attestation Review of Architect and Engineering Design Services Contract:
                                Richard Fleischman Architects, Inc., Contract Number GS-05P-03-GBC-0096

10/12/04        A040190         Review of a Claim: Peterson Geller Spurge, Inc., Subcontractor to J.A. Jones
                                Construction Group, LLC, Contract Number GS-02P-99-DTC-0006(N)

10/14/04        A040192         Preaward Review of Multiple Award Schedule Contract Extension: US
                                Investigations Services, Professional Services Division, Incorporated, Contract
                                Number GS-07F-0385J




64 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                  Title


10/18/04   A040238   Attestation Review of Architect and Engineering Design Services Contract:
                     Westlake Reed Leskosky, Consultant to Richard Fleischman Architects, Inc.,
                     Contract Number GS-05P-03-GBC-0096

10/28/04   A040161   Preaward Audit of a Claim: Artex Systems Inc., Subcontractor to J.A. Jones
                     Construction Group, LLC, Contract Number GS-02P-99-DTC-0006(N)

10/29/04   A040211   Preaward Review of Multiple Award Schedule Contract Extension: Allsteel Inc.,
                     Contract Number GS-28F-0010J

11/10/04   A030200   Preaward Review of Multiple Award Schedule Contract: Skillsoft Public Limited
                     Company, Contract Number GS-35F-0099J

11/23/04   A040150   Preaward Review of Multiple Award Schedule Contract Extension: Austin Info
                     Systems, Inc., Contract Number GS-35F-0559J

12/15/04   A040232   Preaward Review of Multiple Award Schedule Contract: Electronic Data Systems
                     Corporation, Contract Number GS-35F-0323J

12/17/04   A040217   Preaward Review of Multiple Award Schedule Contract Extension: BAE Systems
                     Applied Technologies Inc., Contract Number GS-23F-0005K

12/22/04   A050081   Review of A/E Services Contract: Davis Brody Bond, LLP, Solicitation Number GS-
                     02P-04-DTC-0023(N)

12/23/04   A050072   Review of A/E Services Contract: Flack + Kurtz, Inc., Consultant to Beyer Blinder
                     Belle Architects & Planners, LLP, Solicitation Number GS-02P-04-DTC-0023(N)

12/30/04   A040254   Attestation Engagement Review of Claim for Increased Costs:               Mitchell
                     Enterprises, Inc., Contract Number GS-07P-00-UJC-0007

12/30/04   A050083   Attestation Engagement Review of Claim for Increased Costs: LDI Metalworks,
                     Inc., Subcontractor to Mitchell Enterprises, Inc., Contract Number GS-07P-00-
                     UJC-0007

01/04/05   A050071   Review of A/E Services Contract: Beyer Blinder Belle Architects & Planners, LLP,
                     Solicitation Number GS-02P-04-DTC-0023(N)

01/04/05   A040255   Review of Information Systems Support, Inc.’s Billings for Task Order Number
                     GS10TR-00EBF-2546 Under GSA Contract Number GS-06K-97-BND-0710

01/05/05   A040212   Preaward Review of Multiple Award Schedule Contract Extension: ManTech
                     Advanced Systems International, Inc., Contract Number GS-23F-0122J

01/20/05   A050034   Review of Construction Management Services Contract: Bovis Lend Lease LMB
                     Inc., Solicitation Number GS-02P-04-DTC-0028(N)



                                                                           Office of Inspector General 65
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit
Report         Number                                        Title


01/21/05        A040229         Preaward Review of Multiple Award Schedule Contract Extension:      DigitalNet
                                Government Solutions, LLC, Contract Number GS-35F-0045K

01/25/05        A040244         Preaward Review of Architect and Engineering Design Services Proposal: JVP
                                Engineers, PC, Solicitation Number GS-11P-03-MKC-0004

01/25/05        A040245         Preaward Review of Architect and Engineering Design Services Proposal: JVP
                                Engineers, PC, Solicitation Number GS-11P-03-MKC-0004

01/28/05        A050087         Review of A/E Services Contract: Richard Dattner & Partners Architects PC,
                                Solicitation Number GS-02P-04-DTC-0031

01/31/05        A050056         Preaward Review of Multiple Award Schedule Contract Extension, January 31,
                                2005 Through January 30, 2010: Tybrin Corporation, Contract Number GS-23F-
                                0109K

03/11/05        A050097         Review of Construction Management Services Contract: Bovis Lend Lease, Inc.,
                                Solicitation Number GS-02P-04-DTC-0048(N)

03/17/05        A050117         Preaward Review of Change Order Proposal: Dick/Morganti, a Joint-Venture,
                                Modification (Instruction Bulletin) Number 11, Contract Number GS-09P-02-KTC-
                                0002

03/25/05        A050094         Review of a Claim for Increased Costs: Absher Construction Company, Seattle
                                U.S. Courthouse, Contract Number GS-10P-01-LTC-0011

03/28/05        A050104         Review of Construction Management Services Contract: Imperial Construction
                                Group, Inc., Solicitation Number GS-02P-04-DTC-0048(N)

03/28/05        A050114         Review of Construction Management Services Contract:         Gilbane Building
                                Company, Solicitation Number GS-02P-04-DTC-0048(N)

03/31/05        A050091         Review of A/E Services Contract: Richard McElhiney Architect LLC, Solicitation
                                Number GS-02P-04-DTC-0031




66 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit                                                                        Projected Final
Report     Number                                  Title                                 Action Date


Internal Audits
07/15/99   A82706    PricewaterhouseCoopers LLP Management Letter, Fiscal Year              Open
                     1998 Financial Statement Audit

09/27/01   A010110   Review of GSA’s Natural Gas Program, Public Buildings                  04/15/06
                     Service

09/30/02   A020056   Audit of Controls Over Reimbursable Work Authorizations Billing        06/15/06
                     Practices in the Greater Southwest Region

03/18/03   A020161   Audit of the Consolidation of Distribution Center Operations:          04/15/06
                     Impact on Shipment Costs & Delivery Times

03/31/04   A030110   Audit of the General Services Administration’s Fiscal Years 2003       Open
                     and 2002 Financial Statements

08/05/04   A020245   Review of FedBizOpps                                                   05/15/06

09/21/04   A040099   Review of GSA’s Awards Program                                         04/15/06

12/07/04   A040109   PricewaterhouseCoopers LLP Fiscal Year 204 Information                 Open
                     Technology Management Letter

03/28/05   A040132   Audit of FTS Working Capital/Reserve Fund Levels                       06/15/06

03/30/05   A040089   Limited Review of Contract Administration Task Order Number            08/15/06
                     P1102MA0249

03/31/05   A040159   Improvements Needed in Management, Operational, and                    04/15/06
                     Technical Controls for PBS’ STAR System




                                                                           Office of Inspector General 67
                                  Appendix IV–Delinquent Debts


The GSA Office of the Chief Financial Officer provided the following information.

GSA Efforts to Improve Debt                                  over 2 years old. This is a significant decrease from
                                                             the $111,285 they owed as of September 21, 2005.
Collection
                                                             There was a $34,980 bill paid on March 30, 2006
During the period October 1, 2005 through March 31,          that dated back to October 20, 2001. The GSA
2006, the following activities were undertaken by GSA        Automotive Acquisition Center had stopped
in an effort to improve debt collection and reduce the       accepting orders for non-emergency vehicles from
amount of debt written off as uncollectible.
                                                             the DC Government until this bill was paid. The DC
• From October 1, 2005 to March 31, 2006, the GSA            Government’s desire to order new vehicles was the
  Finance Centers referred approximately $1.7 million        impetus for getting this bill paid. A listing of all
  of delinquent non-Federal claims to the Department         outstanding supply bills is sent monthly to the DC
  of the Treasury (Treasury) for collection. Collections     Government’s Inspector General and Chief Financial
  on non-Federal claims exceeded $58.7 million.              Officer.
  Administrative offsets have resulted in additional
  collections of $8.6 million. GSA also collects           • On March 3, 2006, we received $4,139,219 from the
  non-Federal claims using Pre-Authorized Debits             Department of Justice (DOJ) for a fraud case against
  (PADs). From October 1, 2005 to March 31, 2006,            Office Depot. The total amount collected was
  81 PADs totaling $46,024 were processed.                   $4,267,236 less the DOJ 3 percent fee $128,017.
                                                             The payment was made to settle claims that related
• To comply with the Debt Collection Improvement Act         to a GSA Multiple Awards Contract, and was
  of 1996, GSA transmits delinquent claims each              deposited in Treasury’s miscellaneous receipts (fund
  month to Treasury, Financial Management Service            0890 SGL 5900.01 Other Revenue).
  for collection.
                                                           • On October 1, 2005, Treasury implemented the new
• Claims procedures have been revised to improve             FedDebt System to all Federal program agencies to
  claims management and control. Changes include             collect delinquent Federal debts. The new system
  increases in telephone follow-up contacts with both        has replaced the former Debt Management
  vendors and GSA managers and field personnel to            Servicing Center system. Benefits of FedDebt
  obtain and resolve issues, more consistent and
                                                             include online access, financials (i.e., allow better
  timely delinquency notices by letter, and increased
                                                             reporting of transaction types, and report financials
  efforts to identify invoice offsets. We expect these
                                                             online and by batch), grouping debts for a debtor
  administrative adjustments will result in faster claim
                                                             together (servicing advantages—disputes, agency
  resolutions.
                                                             referrals, etc.), and the ability to better manage joint
• We were able to collect several older bills from           and several liability debts. In January 2006, GSA
  various National Institute for the Blind/National          started receiving payments from FedDebt. The first
  Institute for the Severely Handicapped (NIB/NISH)          file of claims successfully transmitted from GSA and
  organizations.     As a result, the amount of              recorded in FedDebt occurred on March 3, 2006.
  outstanding accounts receivable from NIB/NISH
  customers has dropped from $2.5 million as of            • Hurricane Katrina has created tremendous problems
  September 2, 2005 to $2 million as of March 31,            for many citizens.        GSA, through Treasury,
  2006.                                                      suspended collection action for 120 days against
                                                             debtors living in the disaster area. On January 19,
• As of March 31, 2006, the District of Columbia (DC)        2006, GSA asked Treasury to resume collection in
  Government did not owe any supply bills to GSA             areas affected by the hurricane.



68 Semiannual Report to the Congress
                         Appendix IV–Delinquent Debts




Non-Federal Accounts Receivable

                                    As of             As of
                                October 1, 2005   March 31, 2006            Difference

 Total Amounts Due GSA           $155,957,756     $347,640,439            $191,682,683

 Amounts Delinquent               $29,789,538      $81,240,176              $51,450,638

 Total Amount Written
 Off as Uncollectible
 Between 10/1/05 and
 3/31/06                           $2,931,088




                                                                   Office of Inspector General 69
                                     Appendix V–Reporting Requirements




The table below cross-references the reporting require-                           Congress in Senate Report No. 96-829 relative to the
ments prescribed by the Inspector General Act of 1978,                            1980 Supplemental Appropriations and Rescission Bill
as amended, to the specific pages where they are                                  and the National Defense Authorization Act is also
addressed.     The information requested by the                                   cross-referenced to the appropriate page of the report.




  Requirement                                                                                                                                    Page

  Inspector General Act

     Section 4(a)(2) – Review of Legislation and Regulations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .33

     Section 5(a)(1) – Significant Problems, Abuses, and Deficiencies . . . . . . . . . . . . . . . . . . . . . . . . .2, 17

     Section 5(a)(2) – Recommendations with Respect to Significant
      Problems, Abuses, and Deficiencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2, 17

     Section 5(a)(3) – Prior Recommendations Not Yet Implemented . . . . . . . . . . . . . . . . . . . . . . . . . . . .45

     Section 5(a)(4) – Matters Referred to Prosecutive Authorities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .40

     Sections 5(a)(5) and 6(b)(2) – Summary of Instances Where
      Information Was Refused . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None

     Section 5(a)(6) – List of Audit Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .48

     Section 5(a)(7) – Summary of Each Particularly Significant Report . . . . . . . . . . . . . . . . . . . . . . . .2, 17

     Section 5(a)(8) – Statistical Tables on Management Decisions on
      Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .39

     Section 5(a)(9) – Statistical Tables on Management Decisions on
      Recommendations That Funds Be Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .38

     Section 5(a)(11) – Description and Explanation for Any Significant
      Revised Management Decision . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None

     Section 5(a)(12) – Information on Any Significant Management
      Decisions with Which the Inspector General Disagrees . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None

  Senate Report No. 96-829

     Resolution of Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .37

     Delinquent Debts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .68

  National Defense Authorization Act, Public Law 104-106, 5 U.S.C. App. 3, § 5 note . . . . . . . . . . .57




70 Semiannual Report to the Congress
                           Appendix VI–OIG Offices and Key Officials



Office of the Inspector General
Inspector General, Brian D. Miller (J) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-0450

Acting Deputy Inspector General, Eugene L. Waszily (JD) . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-1362

Advisor, Robert M. Samuels (JX) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-0450


Office of Counsel to the Inspector General
Acting Counsel to the IG, Virginia S. Grebasch (JC) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-1932

Deputy Counsel to the IG, Virginia S. Grebasch (JCD) . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-1932


Office of Internal Evaluation
Director, James A. Amoroso (JE) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-2460


Office of Audits
Acting Assistant IG for Auditing, Andrew Patchan, Jr. (JA) . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-0374

Acting Principal Deputy Assistant IG for Auditing, Andrew A. Russoniello (JAD) . . . . . . . .(202) 501-0374


Programmatic Audit Office Deputy Assistant Inspectors General for Auditing (DAIGAs)
Finance & Administrative Audit Office, DAIGA Kristin R. Wilson (JA-F) . . . . . . . . . . . . . . .(202) 501-0006

Information Technology Audit Office, DAIGA Gwendolyn A. McGowan (JA-T) . . . . . . . . . .(703) 308-1223
Acquisition Programs Audit Office, DAIGA Kenneth L. Crompton (JA-A) . . . . . . . . . . . . . .(703) 603-0189

Real Property Audit Office, DAIGA Regina M. O’Brien (JA-R) . . . . . . . . . . . . . . . . . . . . . .(202) 219-0088


Regional Inspectors General for Auditing (RIGAs)
National Capital Region Field Office, RIGA Paul J. Malatino (JA-W) . . . . . . . . . . . . . . . . .(202) 708-5340

New England Field Office, RIGA Joseph B. Leland (JA-1) . . . . . . . . . . . . . . . . . . . . . . . . .(617) 565-6795

Northeast and Caribbean Field Office, RIGA Joseph M. Mastropietro (JA-2) . . . . . . . . . . .(212) 264-8620

Mid-Atlantic Field Office, RIGA Glenn D. Merski (JA-3) . . . . . . . . . . . . . . . . . . . . . . . . . . .(215) 446-4840

Southeast Sunbelt Field Office, RIGA James D. Duerre (JA-4) . . . . . . . . . . . . . . . . . . . . .(404) 331-5125




                                                                                                           Office of Inspector General 71
                            Appendix VI–OIG Offices and Key Officials



   Regional Inspectors General for Auditing (RIGAs) continued
   The Heartland Field Office, RIGA Arthur L. Elkin (JA-6) . . . . . . . . . . . . . . . . . . . . . . . . . . .(816) 926-7052

   Greater Southwest Field Office, RIGA Rodney J. Hansen (JA-7) . . . . . . . . . . . . . . . . . . . .(817) 978-2572

   Pacific Rim Field Office, RIGA Vacant (JA-9) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(415) 522-2744

     Auburn Sub-Office, Audit Manager Larry L. Pellegrini (JA-9/AUB) . . . . . . . . . . . . . . . . .(253) 931-7650


   Office of Investigations
   Acting Assistant IG for Investigations, Charles J. Augone (JI) . . . . . . . . . . . . . . . . . . . . . .(202) 501-1397

   Deputy Assistant IG for Investigations, Charles J. Augone (JID) . . . . . . . . . . . . . . . . . . . .(202) 501-1397


   Special Agents in Charge (SAC)
   Washington Zone Office, SAC Gregory G. Rowe (JI-W) . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 252-0008

     Philadelphia Sub-Office, Special Agent James Barry (JI-W/P) . . . . . . . . . . . . . . . . . . . .(215) 446-4830

   New York Zone Office, SAC Daniel J. Walsh (JI-2) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(212) 264-7300

     Boston Sub-Office, Assistant SAC Joseph J. Dziczek (JI-2/B) . . . . . . . . . . . . . . . . . . . .(617) 565-6820

   Chicago Zone Office, SAC Harvey G. Florian (JI-5) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(312) 353-7779

     Kansas City Sub-Office, Assistant SAC John F. Kolze (JI-5/KC) . . . . . . . . . . . . . . . . . . .(816) 926-7214

   Fort Worth Zone Office, SAC Charles D. Yandell (JI-7) . . . . . . . . . . . . . . . . . . . . . . . . . . .(817) 978-2589

     Atlanta Sub-Office, Assistant SAC Lee P. Quintyne (JI-7/G) . . . . . . . . . . . . . . . . . . . . . .(404) 331-5126

   San Francisco Zone Office, SAC Liza Shovar (JI-9) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(415) 522-2755

     Auburn Sub-Office, Assistant SAC Terry J. Pfeifer (JI-9/A) . . . . . . . . . . . . . . . . . . . . . . .(253) 931-7654


   Office of Administration
   Assistant IG for Administration, John C. Lebo, Jr. (JP) . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-2319

     Human Resources Division, Director Arrie Etheridge (JPH) . . . . . . . . . . . . . . . . . . . . . .(202) 501-0360

     Information Technology Division, Director Margaret A. Hamilton (JPM) . . . . . . . . . . . . .(202) 501-3134

     Administrative and Financial Management Division, Director Marta M. Viera (JPF) . . . .(202) 501-2887




72 Semiannual Report to the Congress
Notes




        Office of Inspector General 73
                                       Notes




74 Semiannual Report to the Congress
Make
like
it’s
your
money!
It is.
To report suspected waste, fraud, abuse, or
mismanagement in GSA, call your


Inspector General’s Hotline
Toll-free 1-800-424-5210
Washington, DC metropolitan area
(202) 501-1780

or write: GSA, IG, Hotline Officer
          Washington, DC 20405

or access the Web: www.gsa.gov/fraudnet

Office of Inspector General
U.S. General Services Administration
Office of Inspector General
U.S. General Services Administration
1800 F Street, NW
Washington, DC 20405
http://www.gsa.gov/inspectorgeneral
